<html>
<title> - COMBATING TERRORISM: THE 9/11 COMMISSION RECOMMENDATIONS AND THE NATIONAL STRATEGIES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





   COMBATING TERRORISM: THE 9/11 COMMISSION RECOMMENDATIONS AND THE 
                          NATIONAL STRATEGIES

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2004

                               __________

                           Serial No. 108-271

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
98-354                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
TODD RUSSELL PLATTS, Pennsylvania    JOHN F. TIERNEY, Massachusetts
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
EDWARD L. SCHROCK, Virginia          STEPHEN F. LYNCH, Massachusetts
JOHN J. DUNCAN, Jr., Tennessee       CHRIS VAN HOLLEN, Maryland
NATHAN DEAL, Georgia                 LINDA T. SANCHEZ, California
CANDICE S. MILLER, Michigan          C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
MICHAEL R. TURNER, Ohio              ELEANOR HOLMES NORTON, District of 
JOHN R. CARTER, Texas                    Columbia
MARSHA BLACKBURN, Tennessee          JIM COOPER, Tennessee
PATRICK J. TIBERI, Ohio              BETTY McCOLLUM, Minnesota
KATHERINE HARRIS, Florida                        ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
KATHERINE HARRIS, Florida            JOHN F. TIERNEY, Massachusetts
                                     DIANE E. WATSON, California

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 22, 2004...............................     1
Statement of:
    Gorton, Slade, member, National Commission on Terrorist 
      Attacks Upon the United States; and Richard Ben-Veniste, 
      member, National Commission on Terrorist Attacks Upon the 
      United States..............................................    18
    Rabkin, Norman, Managing Director, Homeland Security and 
      Justice Team, U.S. Government Accountability Office; 
      Raphael Perl, Senior Policy Analyst, Congressional Research 
      Service; and John V. Parachini, Senior Policy Analyst, RAND 
      Corp.......................................................    54
Letters, statements, etc., submitted for the record by:
    Gorton, Slade, member, National Commission on Terrorist 
      Attacks Upon the United States; and Richard Ben-Veniste, 
      member, National Commission on Terrorist Attacks Upon the 
      United States:
        Article dated September 7, 2004..........................    47
        Prepared statement of....................................    24
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio:
        New York Times article...................................     7
        Prepared statement of....................................     9
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............   115
    Parachini, John V., Senior Policy Analyst, RAND Corp., 
      prepared statement of......................................    92
    Perl, Raphael, Senior Policy Analyst, Congressional Research 
      Service, prepared statement of.............................    77
    Putnam, Hon. Adam H., a Representative in Congress from the 
      State of Florida, prepared statement of....................    16
    Rabkin, Norman, Managing Director, Homeland Security and 
      Justice Team, U.S. Government Accountability Office, 
      prepared statement of......................................    57
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3

 
   COMBATING TERRORISM: THE 9/11 COMMISSION RECOMMENDATIONS AND THE 
                          NATIONAL STRATEGIES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 22, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Kucinich, Turner, Duncan, 
Putnam, Lynch, Platts, Ruppersberger, Maloney, Tierney, Watson, 
and Sanchez.
    Staff present: Lawrence Halloran, staff director and 
counsel; R. Nicholas Palarino, senior policy advisor; Robert A. 
Briggs, clerk; Richard Butcher and Andrew Su, minority 
professional staff members; and Jean Gosa, minority assistant 
clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Combating Terrorism: The 9/11 Commission 
Recommendations and the National Strategies,'' is called to 
order.
    The final report of the National Commission on Terrorist 
Attacks Upon the United States, referred to as the 9/11 
Commission, gave us the first comprehensive, objective analysis 
of what went so tragically wrong that day 3 years ago. A 
unanimous commission called for reflection and reevaluation, 
saying that the United States should consider what to do, the 
shape and objectives of the strategy. Americans should also 
consider how to do it, organizing their government in a 
different way.
    Today, we respond to that call for a dialog in the national 
strategies and tactics required to meet and defeat the threat 
of radical Islamic terrorism. Prior to September 11, 2001, this 
subcommittee heard testimony based on the work of the three 
national commissions on terrorism: the Bremer, Gilmore and Hart 
Rudman, citing the need for a dynamic threat assessment, and 
the lack of any overarching counterterrorism strategy.
    After September 11th, we were told the 2002 National 
Strategy for Homeland Security, the 2003 National Strategy to 
Combat Terrorism, and other high level policy statements 
addressed the need for a post-cold war security paradigm that 
replaced containment and mutually assured destruction with 
detection, prevention, and at times, preemptive action to 
protect the national security of the United States.
    The commissioners now ask us to consider whether these 
strategies adequately reflect the harsh realities and hard 
choices they confronted on our behalf. To a large extent, they 
do. Current policy and spending guidance mirror many commission 
recommendations on disruption of terror networks abroad and 
protection of Americans at home. But the September 11 panel 
seeks greater strategic clarity in characterizing the threat. 
Terrorism is a tactic, not an enemy. A war against terror 
targets an incorporeal emotion.
    The commission argues for a strategy based on a realistic 
assessment of the threat posed by radicals perverting religion, 
Islamic whose motivations, goals and capabilities can be 
estimated, analyzed and countered. Additionally the commission 
looks for a far sharper focus on public diplomacy to supplant 
the toxic ideology of hatred and death that seeks both global 
and generation reach. They believe under-utilization of the so-
called soft powers of communication and persuasion leave us 
without an effective long term strategy to address the root 
causes of Islamic terrorists.
    The strategy articulates a goal, a desired end state, a 
long term objective achieved by artful orchestration of the 
means and ends of national power. But in the modern context, 
against a foe insidiously detached from the civilized norms of 
statecraft, strategy must be as much process as product, more 
verb than noun. The key to modern security is dynamic strategic 
thinking, not a static strategic balance. The 9/11 Commission 
recommendations challenge us to strive for that new level of 
strategic vigilance.
    We are very grateful for the commission's work, profoundly 
grateful, and for the contribution of the two commission 
members testifying today. We look forward to their testimony 
and that of all our witnesses.
    At this time, the Chair would recognized the distinguished 
gentleman from Ohio, Mr. Kucinich.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T8354.001
    
    [GRAPHIC] [TIFF OMITTED] T8354.002
    
    Mr. Kucinich. Thank you very much, Mr. Chairman. I want to 
welcome Senator Gorton and also Richard Ben-Veniste and thank 
them for their work and for their commitment to our country.
    I want to thank the Chair for calling this hearing and say 
that it's always a welcome opportunity for Congress to hear 
from members of the 9/11 Commission and to discuss how to 
implement the recommendations they put forth in their report. 
To this point, the focus of Congress has been on reforming our 
intelligence community so that the multiple intelligence 
agencies are finally held responsible for their work.
    I'm pleased that this aspect of the commission's work is 
being addressed so quickly. The culture of secrecy is far too 
great in Washington, and if we are to defeat terrorism, then we 
must learn to share with and trust one another. We simply 
cannot allow our security to be weakened by internal disputes 
and turf battles.
    As you know, I have grave concerns about the direction of 
our foreign policy, especially the military decisions made by 
the current administration. Yet I do fully agree with the 
documents we are to discuss today in one important area, that 
the civil liberties of all people should be respected. The 
national strategy on homeland security states that, ``to secure 
the homeland better, we must link the vast amounts of knowledge 
residing within each Government agency while ensuring adequate 
privacy.'' It goes on to state, ``We are a Nation built on the 
rule of law and we will utilize our laws to win the war on 
terrorism while always protecting our civil liberties.''
    The other document we are to discuss today, the National 
Strategy to Combat Terrorism, concludes by stating in the very 
last paragraph, ``The defeat of terrorism is a worthy and 
necessary goal in its own right, for ridding the world of 
terrorism is essential to a broader purpose. We strive to build 
an international order where more countries and peoples are 
integrated into a world consistent with the interests and 
values we share with our partners, values such as human 
dignity, rule of law, respect for individual liberties, open 
and free economies and religious tolerance. We understand that 
a world in which these values are embraced as standards, not 
exceptions, will be the best antidote to the spread of 
terrorism. This is the world we must build today.''
    The 9/11 Commission's report also clearly states on page 
349 that the President should ``safeguard the privacy of 
individuals about whom information is shared.'' On the next 
page of the report, the commission recommends that there be a 
board to oversee the commitment the Government makes to defend 
our civil liberties. That is one part of the commission's 
report which has not garnered much attention, but which should. 
Yet unlike the overall of U.S. intelligence which may be 
enacted by legislation in the near future, I've seen very real 
little action within the current administration to implement 
the recommendation in the commission's report.
    Instead, I see far too many attempts to curtail our civil 
liberties at our libraries, our airports, even when we exercise 
our right to demonstrate. I see, and for that matter terrorists 
see, the mistreatment of prisoners at Abu Ghraib prison and at 
Guantanamo Bay. Mr. Chairman,
    I would like to submit for the record a lead editorial from 
Monday's New York Times entitled ``In Defense of Civil 
Liberties.'' This editorial urges a stronger, more independent, 
more accountable civil liberties board than that of the 
President's, and which would truly accomplish what the 9/11 
Commission envisioned.
    Mr. Shays. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8354.003
    
    Mr. Kucinich. Thank you, Mr. Chairman. One of the things 
about this editorial, which I hope every Member gets an 
opportunity to look at, is a quote that every Member should 
take note of. It says ``A polarized Congress, wary of being 
portrayed as soft on terrorism, is not adequate defense for our 
constitutional rights.''
    On one hand, I would have to take exception to that as a 
Member of Congress, but on the other hand, we need to be aware 
that these debates sometimes can cause us to throw overboard 
the very liberties which we swear to uphold. And I think that 
the 9/11 Commission's report says, and this is worthy of 
considering as I conclude, ``The choice between security and 
liberty is a false choice, as nothing is more likely to 
endanger America's liberties than the success of a terrorist 
attack at home. Our history has shown us that insecurity 
threatens liberty. Yet if our liberties are curtailed, we lose 
the values we are struggling to defend.''
    Thank you, Mr. Chairman. I look forward to hearing the 
testimony of the witnesses.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T8354.004

[GRAPHIC] [TIFF OMITTED] T8354.005

[GRAPHIC] [TIFF OMITTED] T8354.006

[GRAPHIC] [TIFF OMITTED] T8354.007

[GRAPHIC] [TIFF OMITTED] T8354.008

[GRAPHIC] [TIFF OMITTED] T8354.009

    Mr. Shays. I thank the gentleman. I don't know if the vice 
chairman of the subcommittee has a statement. We have Mr. 
Duncan as well. Do you have a statement you'd like to make?
    Mr. Duncan. Mr. Chairman, I don't have a formal statement. 
I just want to commend you for how active you are in leading 
this subcommittee. I think you're one of the most thoughtful 
and hard working chairmen of any subcommittee that we have in 
this Congress and calling this hearing this morning is just an 
example of that. I want to say how impressed I was with the 
work of the 9/11 Commission. I was very impressed with the 
bipartisan nature about which, the way in which they went about 
their duties.
    I think one of the problems that we sometimes face is that, 
nobody who is a real critic of the intelligence agencies ever 
gets on the intelligence committees. So no real tough question 
are ever really asked until after there is a serious problem. 
And I have never asked to sit on an intelligence committee, and 
I don't want to, I prefer to serve on other committees. But 
that's something that I think we need to consider in the 
future.
    But thank you very much for this hearing this morning.
    Mr. Shays. I thank the gentleman for his nice comments, and 
also to call on the former vice chairman of this subcommittee, 
Mr. Putnam.
    Mr. Putnam. Thank you, Mr. Chairman. I will submit my 
statement for the record, but I do want to echo Mr. Duncan's 
comments that I was honored to serve as your vice chairman when 
you took testimony from the Gilmore Commission, from the Hart 
Rudman Commission and from the Bremer Commission before Bremer 
was a household name. And all of those things took place before 
September 11, and those commission reports by and large 
gathered dust until September 12, 2001.
    It's good to see that this thoughtful commission report is 
attracting the attention that it deserves and I hope that we 
will be very thoughtful and deliberative in taking up their 
hard thought recommendations. Mr. Chairman, in the interest of 
time, I'll submit the remainder of my statement for the record.
    [The prepared statement of Hon. Adam H. Putnam follows:]

    [GRAPHIC] [TIFF OMITTED] T8354.010
    
    [GRAPHIC] [TIFF OMITTED] T8354.011
    
    Mr. Shays. I thank the gentleman.
    I just want to say to our two witnesses before I call on 
them, just to thank them for the work that they did on the 9/11 
Commission, but thank them for choosing excellent staff. The 
staff has been extraordinary. They have written really, I 
almost think, a sacred report. That's kind of how I feel about 
it. I want to also say that the bottom line to this hearing for 
me is, this is one of the most interesting hearings I think we 
can have. Because if we don't get the strategy right, 
everything after that is almost useless.
    So at this time, let me recognize the Honorable Slade 
Gorton, member, National Commission on Terrorist Attacks Upon 
the United States; and Mr. Richard Ben-Veniste, member, 
National Commission on Terrorist Attacks Upon the United 
States. As you know, we swear in our witnesses. At this time, I 
would ask you to rise and swear you in. This is an 
investigative committee, and all our witnesses have been sworn 
in except only one, and that was Senator Byrd, because I 
chickened out. [Laughter.]
    [Witnesses sworn.]
    Mr. Shays. Thank you.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement into 
the record, and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record. 
Without objection, so ordered.
    At this time, I don't want to choose between a Republican 
and a Democrat, not with this commission, Senator, you have the 
floor.

  STATEMENTS OF SLADE GORTON, MEMBER, NATIONAL COMMISSION ON 
   TERRORIST ATTACKS UPON THE UNITED STATES; AND RICHARD BEN-
VENISTE, MEMBER, NATIONAL COMMISSION ON TERRORIST ATTACKS UPON 
                       THE UNITED STATES

    Senator Gorton. Chairman Shays, Ranking Member Kucinich, 
distinguished members of the subcommittee. The Commission is 
honored to appear here today. We're gratified by your deep and 
continuing interest in the Commission's work. We appreciate the 
opportunity to discuss with you again some of the commission's 
recommendations, particularly some which have not received as 
much attention as those involving reform of the structures of 
the executive branch.
    The commission's findings and recommendations were strongly 
endorsed by all commissioners, five Republicans and five 
Democrats. We share a unity of purpose. We hope that the 
Congress and the administration will display the same spirit of 
bipartisanship as we collectively seek to make our country and 
all Americans safer and more secure.
    We begin by reviewing briefly the road we have traveled 
since July 22nd, the day the commission presented its report. 
We believe we have made important progress. We're pleased with 
the overall direction of the debate. From the outset, we have 
had statements of support from the President and from Senator 
Kerry. We thank the Congress for the opportunity to explain our 
work to the Congress and to the American people. Members of the 
Commission have testified at 18 hearings since July 22nd. We're 
gratified by the work of Senators McCain, Collins and Lieberman 
in support of our recommendation.
    Chairman Shays, we thank you and Representative Maloney for 
introducing a bill in the House that speaks to all of the 
commission's recommendations. We believe, as you do, that we 
cannot prevail in the struggle against Islamist terrorism 
unless we adopt a comprehensive approach. We welcome the 
endorsement of the President and of the House leadership of the 
idea of a National Intelligence Director and a National 
Counterterrorism Center. We want to work closely with both the 
administration and the Congress in the refinement of our 
proposals, and work for the adoption of as many of our 
recommendations as we can achieve between now and the 
adjournment of this Congress.
    Mr. Chairman, in response to your letter of invitation, we 
start with a few comments about the National Strategy for 
Combating Terrorism and the Homeland Security Strategy put 
forward by the President. We find them in general terms to be 
helpful documents.
    We make two points about the National Strategy for 
Combating Terrorism. First, the President's strategy places a 
heavy emphasis on destroying the terrorist threat. So do we. In 
our very first recommendation, we state that it must be the 
policy of the United States to deny terrorists the ability to 
establish sanctuaries. To deny, disrupt and destroy such 
sanctuaries, we want to work with friends and allies, if 
possible, and alone if necessary. We believe strongly that Bin 
Ladin and his lieutenants must be captured or killed and that 
the al-Qaeda organization must be destroyed.
    Second, the President's strategy speaks of many forms of 
terrorism. But we concentrate on just one--Islamist terrorism. 
Moreover, we identify Islamist terrorism as the leading 
national security threat to the United States.
    We believe we cannot succeed against terrorism by Islamist 
extremist groups unless we use all of the elements of national 
power: military power, intelligence, covert action, law 
enforcement, economy policy, foreign aid, homeland defense and 
diplomacy, both quiet diplomacy and public diplomacy. If we 
favor one tool while neglecting others, we leave ourselves 
vulnerable and weaken our national effort. This is not just our 
view, it is the view of almost all policymakers.
    Secretary Rumsfeld told us that he can't get the job done 
with the military alone. For every terrorist we kill or 
capture, more rise up to take their place. He told us the cost-
benefit ratio is against us. Cofer Black told us the CIA alone 
can't get the job done either.
    For this reason, the Commission made a whole host of 
recommendations in addition to a recommendation on the use of 
force. We are engaged in a struggle against a set of ideas with 
considerable resonance in the Arab and Muslim worlds. There are 
tens, if not hundreds of millions, of Bin Ladin sympathizers in 
the Arab and Muslim world. While they may reject violence, they 
may also be sympathetic to many elements of Bin Ladin's 
message.
    We must find a way to reach this great majority of Muslims, 
from Morocco to Malaysia. Right now, we are not doing a very 
good job. Polls taken in the past year show that the bottom has 
fallen out of support for America in most of the Muslim world. 
Negative views of the United States among Muslims, which had 
been largely limited to countries in the Middle East, have 
spread. If we do not change this dynamic, young Muslims who 
expect no improvement in their own lives or societies may well 
become the wellspring of support for Bin Ladin.
    The President's strategy touches on these themes concerning 
the war of ideas. We believe they need to be given greater 
emphasis. We cannot defeat Islamist terrorism if we cannot 
persuade young Arabs and Muslims that there is a better course. 
We must project a message of hope, a message of support for 
educational and economic opportunity for them, their children 
and grandchildren.
    The President's Homeland Security Strategy dates from July 
2002. Since that date, the Department of Homeland Security has 
been created and many other steps have been taken. We would 
concentrate on just two observations about the strategy. They 
relate in both cases to implementing that strategy.
    First, homeland security assistance should be based 
strictly on an assessment of risks and vulnerabilities. 
Assessment of critical infrastructure vulnerabilities must be 
completed by the Department of Homeland Security and risk must 
then be factored in. Now, in 2004, Washington, DC, and New York 
City are certainly at the top of any such list. We must 
understand the contention that every State and city needs to 
have some minimal structure for infrastructure response. But 
Federal homeland security assistance should not remain a 
program of general revenue sharing.
    Second, the American people understand that in a free 
society we cannot protect everything, everywhere, all the time. 
But they do expect their Government to make rational decisions 
about how to allocate limited resources. Since September 11, we 
have put 90 percent of our transportation dollars against the 
threat to aviation security, even as we know that there are 
threats to maritime, rail and surface transportation.
    Despite congressional deadlines, the Transportation 
Security Administration has developed neither an integrated 
strategic plan for the transportation sector nor specific plans 
for the various modes. Without such plans, neither the public 
nor Congress can be assured we are identifying the highest 
priority dangers and allocating resources to the most effective 
security measures. DHS Under Secretary Hutchinson has testified 
that such plans will be completed by the end of the year. We 
believe it important that the Congress hold DHS to that 
commitment.
    In making decisions about how to allocate limited resources 
to defend our vast transportation network, we believe strongly 
that TSA must use risk management techniques. This requires 
that the Government evaluate the greatest dangers, not only in 
terms of terrorist intentions as we understand them, but also 
taking into consideration the vulnerabilities of the Nation's 
infrastructure and the consequences of potential attacks.
    Mr. Chairman, I'm Richard Ben-Veniste. I want to thank you 
and your colleagues for the very kind and generous remarks you 
made about the commission's work, and particularly, with 
respect to your recognition of the work performed by our 
incredible staff.
    Mr. Chairman, I would like to highlight an important part 
of our recommendations on the topic of civil liberties. We can 
report to you that from the very beginning of the commission's 
work, each commissioner was conscious of the need to make sure 
that in our struggle against terrorism we do not compromise the 
very rights and liberties that make our system of government 
and our society worth defending.
    Concern about the civil liberties of American citizens was 
one of a number of reasons that the commission rejected the 
idea of moving domestic intelligence and counterintelligence 
responsibilities of that agency and putting them in a new MI-5 
type of agency. We feared that such a new agency, not steeped 
in the respect for the rule of law and the constitution that 
reflects the commitment of career professionals at the FBI and 
the Justice Department would be more likely to trample on 
individual rights.
    The commission made three major recommendations with 
respect to civil liberties. First, the commission dealt with 
the critical and complicated privacy issues that are at the 
heart of the information society, and they are at the center of 
necessary efforts to increase the amount of information 
gathered about terrorists. The commission recommends 
improvements and enhancements in those information gathering 
abilities and in information sharing. But we also recognize 
that with the enhanced flow of information comes a need to 
establish guidelines and oversight, to make sure that the 
privacy of our citizens and residents is respected and 
preserved.
    We believe, as did the Markle Task Force in its excellent 
reports, that we have the ability to gather and share 
information and protect privacy at the same time. But this 
requires leadership and coordination in the Executive branch. 
No one agency can deal with this problem alone. Instead, we 
recommend that the President lead a Government-side effort 
through OMB and the National Intelligence Director to set 
common standards for information use throughout the 
intelligence community. These standards would govern the 
acquisition, accessing, sharing and use of private data so as 
to protect individual rights. The same technology that 
facilitates the gathering and sharing of information can also 
protect us from the mis-use of that information.
    Second, the commission made observations on the provisions 
of the Patriot Act relating to information sharing. The 
commission commented on the wall created through judicial 
rulings and Executive department regulations beginning in the 
1890's that had severely constrained the flow of information 
acquired through surveillance and under the Foreign 
Intelligence Surveillance ACT, FISA, from the intelligence side 
of the FBI to the criminal side of that agency and to Federal 
prosecutors.
    We believe the provision of the Patriot Act that eliminated 
the wall on balance is beneficial. Witnesses were virtually 
unanimous in telling us that the provision was extremely 
helpful to law enforcement and intelligence investigations with 
little if any adverse impact on the rights of potential 
defendants.
    However, we did propose a general test to be applied to the 
consideration of the renewal of other provisions of the Patriot 
Act. We believe that principle should also be applied to other 
legislative and regulatory proposals that are designed to 
strengthen our security, but which may impinge on individual 
rights. The test is simple, but an important one. The burden of 
proof should be on the proponents of the measure to establish 
that the power or authority being sought would in fact 
materially enhance national security and that there will be 
adequate supervision of the exercise of that power or authority 
to ensure the protection of civil liberties. If additional 
powers are granted, there must be adequate guidelines and 
oversight to properly confine their use.
    The third recommendation of the commission on civil 
liberties flows from the first two. Individual liberties and 
rights must be protected in the administration of the 
significant powers that Congress has granted to the Executive 
branch agencies to protect national security. A central board 
should have the responsibility to oversee adherence to 
guidelines that are built into these programs to safeguard 
those rights and liberties.
    We welcome the President's Executive order of August 27th 
creating a civil liberties board as a positive first step in 
the direction and recognition of the commission's 
recommendations. We note, however, that such a board will be 
strengthened significantly if it is created by statute. In 
addition, it will be strengthened if certain important 
refinements in its composition and powers are made.
    We do not believe the board should be comprised of 
administrative officials drawn from the very agencies the board 
was created to oversee. Instead, we envisioned a bipartisan 
board with members appointed directly by the President, with 
the aim of including outstanding individuals from outside 
Government who can provide a more disinterested perspective on 
this vital balance. Though the commission did take an explicit 
position on this issue, we believe those members of the board 
should be Senate-confirmed.
    Such a board will also need explicit authority to obtain 
access to relevant information, including classified 
information. Such a board should also have broad authority to 
look across the Government at the actions we are taking to 
ensure that liberty concerns are appropriately addressed. Last, 
and importantly, such a board should be transparent, making 
regular reports to Congress and the American public.
    Mr. Chairman, such a board of the kind we recommend can be 
found in the Collins-Lieberman bill in the Senate, and in the 
Shays-Maloney bill introduced in the House. We believe we need 
a reorganization of Government that will more effectively and 
efficiently protect us against terrorism. More specifically, we 
recommend a strong National Intelligence Director and stronger, 
more intrusive measures for border security and transportation 
security. But if Government is stronger, so must be the 
protection for individuals against Government action.
    Our history has shown us that insecurity threatens liberty. 
Yet, if our liberties are curtailed, we lose the values that we 
are struggling to defend.
    Finally, we want to point out that our recommendations made 
to streamline and make more effective the critical role of 
congressional oversight have received little attention. This is 
perhaps the area that has also received the least public 
debate. Yet unless greater authorities provided to the 
Executive branch are matched by effective oversight by the 
Congress, the critical balance contemplated by our 
constitutional system will fall short of our society's 
justifiable expectations.
    Mr. Chairman, we would be pleased to answer any questions 
you might have.
    [The prepared statement of Senator Gorton and Mr. Ben-
Veniste follows:]

[GRAPHIC] [TIFF OMITTED] T8354.012

[GRAPHIC] [TIFF OMITTED] T8354.013

[GRAPHIC] [TIFF OMITTED] T8354.014

[GRAPHIC] [TIFF OMITTED] T8354.015

[GRAPHIC] [TIFF OMITTED] T8354.016

[GRAPHIC] [TIFF OMITTED] T8354.017

    Mr. Shays. I thank you both very much for your comments.
    I'm not going to be asking the first questions. I will go 
to Mr. Turner. But I do want to say this to you. The issue of 
how the House is organized is probably not going to be settled 
until January of next year, either with a Democratic Congress 
or a Republican Congress. But I am going to vote against any 
rule, be it a Republican or Democratic Congress, that doesn't 
incorporate the recommendations of the Commission. Now, there 
may be some slight variations as to how that happens, I mean, 
there might be two committees that deal with issues of homeland 
security, because you take FEMA, it sometimes is involved in 
the threat of the terrorists, but it also can be a natural 
disaster, and there may be slight variations.
    But I just want to go on record, I will vote against any 
rule put forward by either party that doesn't incorporate the 
recommendations of the Commission. It's absolutely vital. We're 
talking about reorganizing Government and the administration, 
we'd better do the same for Congress.
    At this time the Chair would recognize, I think what we're 
going to do is a 5-minute round. I'll be generous with the 5-
minute round, and then we'll come back a second time, because 
we have so many members. I want either member to feel like they 
can respond to a question that the other is asked. If that 
happens, I'll just go a little beyond the 5 minutes to the 
member. Either of our witnesses can answer the question. Thank 
you.
    Mr. Turner. Thank you, Mr. Chairman. I want to thank both 
the commissioners for being here today and for the excellent 
work of the 9/11 Commission. Certainly the 9/11 Commission's 
work has been very important for our country. You've delivered 
a non-partisan report that has a great to-do list that I think 
will make our country safer.
    I also appreciate your time in coming to these hearings and 
participating. This is the sixth 9/11 Commission recommendation 
hearing that I've participated, three that our chairman has led 
in his efforts to continue to make certain that this committee 
is focused on relevant issues as to how to make America safe in 
the war on terror.
    One of the aspects of the report and the recommendations 
that I have an interest in is the issue, Senator, that you were 
talking about, in that beyond intelligence, beyond the issue of 
military might, but our efforts in winning the war on ideas. 
Many times the war on terrorism is compared to the war on 
communism and the cold war. There we had an ideology that 
claimed to be bringing increased freedom and prosperity to its 
people. But it fell with the weight of the reality of what 
democracy was achieving in the world while it was not.
    Here, with your report having identified, and I think it's 
very helpful that your report took the strong stance of 
identifying Islamic extremism as really the issue and the tough 
target that we're struggling with, we have ideas that are tied 
with a religious basis that talks not only about the reality of 
today but also a reward in the afterlife, and a devaluing of 
not only the lives of others but even of an individual's own 
life. I think that makes it much more difficult for us in the 
war of ideas, communism not having been a religion, of the 
reality of its performance and the performance of democracy and 
capitalism could be felt and compared.
    The report talks about the importance of hope and education 
and economics. Certainly we know that specifically with the 
September 11 terrorists, they were not economically 
disadvantaged. But certainly in the war on terror, as we try to 
battle these ideas, our typical model battling those ideas is 
to work out with exchanges of information and ideas and to work 
through processes of education of economics.
    I would just like your thoughts as to, who do you think our 
partners are going to be as we reach out and attempt to do 
this, how do you see the process working? Focusing on the issue 
of the war of ideas, I'd like your thoughts, as you went 
through this process and put this report together, that would 
be helpful to us.
    Mr. Shays. Before you respond, let me just say, given that 
I think this kind of dialog is important, it's going to take 
more than 5 minutes, we're now going to do 10 minute rounds. 
I've consulted with Mr. Kucinich, so we'll do a 5-minute clock 
and then we'll trip it over for another 5 minutes.
    Senator Gorton. Mr. Turner, in a very real sense, you 
incorporated our answer in the question itself, the kind of 
challenges we face, the parallels and the lack of parallels 
between these challenges in the war of ideas to that during the 
course of the cold war. I think you've pointed out quite 
rightly that in many respects this is a more difficult 
challenge. Because in large measure, it is a philosophy that is 
religiously motivated. And particularly among the Bin Ladin 
organization and its offshoots themselves, there is no 
distinguishing feature between politics and religion. They end 
up being exactly the same thing. Obviously we aren't going to 
attempt to teach religion in any kind of war of ideas.
    I think that what we have to do is to encourage those 
Muslim societies that have been relatively successful. We can 
see a high degree of success in Turkey, for example, after some 
80 years, and a philosophy that at least until recently, and to 
a certain extent at the present time, separates church and 
state in a way very much analogous to the situation we have 
here.
    But we see other societies there that have to a certain 
extent been successful literally from Morocco to Malaysia, and 
the two countries that we mentioned here, we see progress, as 
slow as it may be, even in some of the Arab countries, in the 
Kuwait that we liberated. We point out that one of the real 
problems in those societies, one of the real reasons for this 
long, centuries-long decline vis-a-vis the West, is their 
treatment of women. It is very important for their own progress 
that women be liberated and be allowed to live up to the 
maximum of their potential. That's taken place to a greater or 
lesser extent in some of those countries.
    But I think the best thing we can do is to try to share 
those elements in our society that, outside of religion, have 
been successful. I think we need to encourage students to come 
here to the United States, to provide some support for those 
students to see what the United States is like. That isn't 
always successful. Khalid Sheik Mohammad, the leader, is a 
graduate of a college here in the United States. But I think 
overall we can say that helps.
    But just as we have the Voice of America and the Voice of 
Free Europe, we've got to be willing to engage in that battle 
of ideas on the ground with people who have television sets, 
with people who have radios and the like, and to present in 
their own languages the kind of hope that freedom, both for 
individuals and in the economy and in elections, how that has 
made lives better here and can make life better there. There is 
no one magic formula, there is no one key to overall success. I 
think if I were to summarize it, we have to be our own best 
selves and share our own best selves with other people who do 
not live with the degree of open freedom we have.
    Mr. Turner. Commissioner Ben-Veniste.
    Mr. Ben-Veniste. As usual, my friend Slade Gorton has 
expressed our views eloquently and fully. One thing I would 
like to focus on is the issue of education. We make a proposal 
for an education fund, which would in our view, greatly 
increase the world view, a system that is not the kind of 
educational system exported by some of our allies, such as the 
Saudis, for decades, which teaches intolerance and hatred, but 
rather providing educational opportunities that teach the value 
of plurality and hope. Mothers throughout the world will not 
choose, if given the choice, suicide over hope.
    Mr. Turner. A followup, since we have additional time, on 
the issue of measuring our success, one of the things that is 
cited in the report are polls. If you look at polls and the 
United States standing in the area now, and you compare them to 
prior to September 11th, we were doing much better than we are 
now. Yet we were attacked. How would you measure our success in 
the war of ideas, knowing that the polls don't necessarily 
reflect that we're winning the war of ideas with potential 
terrorists?
    Mr. Ben-Veniste. Let me say, Mr. Turner, that the polls 
prior to September 11 did not reflect any connection between 
the attack by this murderous group of cowards who would kill 
women and children to further their ends and the realities of 
what occurred. However, if you look at the polls and the 
wellspring of sympathy to this country that immediately 
followed on the September 11 attack, and you compare them with 
the current situation, the handwriting is clearly on the wall 
that we are not winning the hearts and minds----
    Mr. Turner. My time is almost up. Excuse me for a moment. 
So you would agree that the polls prior to September 11 would 
not have indicated to us that we were imminently being 
attacked, so they're not really a good measurement as to 
whether we're being successful in this war of ideas.
    Mr. Ben-Veniste. The war of ideas was not, in our view, the 
reason for the attacks of September 11. There is no reasoning 
with al-Qaeda, with Bin Ladin, with the wannabees which have 
sprung up, not only over the past years, but that existed prior 
to September 11. Those are not the people who we will focus 
upon in winning the war of ideas. We will focus upon people 
whose minds are open to a discussion of what is best for their 
families in the present and future generations.
    We are not winning that war by any objective standards now. 
We are killing terrorists, but Bin Ladin and other 
organizations are recruiting them faster than we can kill them.
    Senator Gorton. The ultimate measurement is right here. 
It's whether or not we prevent attacks on the United States and 
one hopes in the rest of the world. In the more narrow of those 
two questions, of course, we have been successful since 
September 11. Obviously some of the measures we've taken have 
been important.
    But no one can conceivably say to you or to the American 
people that we're over the hump, that because we've been 
successful for a couple or 3 years we're going to continue to 
be successful. That's the reason for our recommendations at 
every one of these levels. But the measurement the American 
people are primarily interested in is the measure as to whether 
or not there's a repeat.
    Mr. Ben-Veniste. Right. We were successful by that measure 
from 1993 to 2001.
    Senator Gorton. In the United States.
    Mr. Ben-Veniste. Yes.
    Mr. Shays. The challenge we have, though, in the United 
States, is it's kind of like the sign that says, shark infested 
waters and someone goes swimming there and then gets out and 
says, see, there was nothing to be concerned with.
    Senator Gorton. That is a good analogy.
    Mr. Shays. Mr. Kucinich, you have the floor for 10 minutes.
    Mr. Kucinich. Mr. Ben-Veniste, you just made a comment that 
said that we're killing so many terrorists, but more and more 
keep coming up. Is that basically what you're saying?
    Mr. Ben-Veniste. We heard testimony, Mr. Kucinich, from a 
CIA expert in terrorism before the last hearing, I believe it 
was, where I asked that specific question whether there was any 
metric by which his agency could measure the level of 
recruitment following the invasion of Iraq. He indicated that 
there was a substantial increase in recruitment for al-Qaeda.
    Mr. Kucinich. So has terrorism become more of a problem the 
more people we kill or the less people we kill?
    Mr. Ben-Veniste. I think the way that we're looking at this 
war in which we are engaged is one in which the war of ideas is 
almost equally as important. What are we exporting in this 
country? What do people throughout the world and particularly 
in Muslim countries believe about the United States? And as 
Senator Gorton has said earlier, we are not doing enough, we 
are not doing what we can to export the heart and soul of what 
our country is about. People are seeing the export of violence 
and military might and in some instances gross violations of 
our dearly held principles in the way we have treated 
individuals overseas.
    That has to stop, that has to change in our view. We can do 
much better, and we should be able to do much better in 
exporting the kinds of ideals about which are proud in this 
country.
    Senator Gorton. We want to emphasize the integration of 
responses, not one alone. I think perhaps we can identify four 
levels of our defenses against terrorism. One is passive, the 
kind of procedures you must go through when you get on an 
airplane. Second is intelligence itself, knowing more or 
learning more about the threats against us. Clearly our 
intelligence agencies failed this prior to September 11 in that 
connection. Many of our important recommendations, including 
those that have gotten the greatest degree of attention, 
reflect on that.
    Third is the war of ideas, to try to dry up support for 
this kind of activity. And fourth, of course, is to go after 
the terrorists where they are, those who cannot be persuaded in 
any event. We lay out here in the book what Bin Ladin says, the 
way Bin Ladin says that we can get rid of terrorism is to get 
out of the Middle East, all convert to Islam and end our 
civilization. That's not really something you can negotiate.
    Mr. Kucinich. Let me try to tie a few things here together. 
I mentioned earlier the New York Times editorial where they 
talked about the polarized Congress. Has anyone ever given any 
thought on the commission to the effect of the words that we 
use in our diplomacy and our policies, the semantic 
construction? For example, let's look at the concept of a 
``war'' on terrorism, or a ``war'' of ideas. Has anyone on the 
commission ever given any thought to the exigent circumstances 
which are created by those words that we actually may be 
putting ourselves in polarity, creating the very thing that 
we're seeking to avoid?
    Mr. Ben-Veniste. That's a very reasonable way of looking at 
this in a generic sense, Mr. Kucinich. We looked at it from the 
standpoint of the conflict of ideologies, whether you call it a 
war or a conflict, or a struggle or a competition. It's 
something that we recognized we could do better at and we 
should do better at, because we have the better argument.
    When we talk about a war on terrorism, as Chairman Shays 
has said here today, and repeatedly over time, terrorism is a 
technique. We are not at war with terrorism any more than we 
are at war with tanks or artillery or hand grenades. But we are 
in a struggle against a fanatical group of Islamist terrorists, 
who are organized, better or worse, over time as you take a 
snapshot of them. But they are a formidable adversary. They are 
opportunistic, they are smart, they have gamed us, they have 
studied us. They have been able to use the very freedoms which 
make us great to their advantage.
    So we need to be smarter, more efficient and more effective 
about how we use our tremendous resources to avoid further 
bloodshed on our soil, while at the same time, as you and I 
have said, protecting our civil liberties, which makes us the 
society we are today.
    Senator Gorton. Mr. Kucinich, I think I would divide your 
question into two and answer the two halves of it differently. 
I think you make a good point, when we overuse that word war. 
In connection with ideas, with this struggle, it's a 
competition and the like. It may be that we can phrase it 
better.
    On the other hand, the struggle of life and death is in 
fact a war. Osama Bin Ladin declared war on the United States, 
and the problem is we didn't pay any attention to it, even when 
it was Americans who were being killed overseas. That is a war. 
There's no other way to describe it. It is a war with that 
group. One of our goals has to be to make that group as narrow 
and small as possible and separate them from the vast majority 
of people in their own societies. And that's a contest. It's a 
contest of ideas.
    Mr. Kucinich. Yes. Words matter here, Mr. Chairman, and to 
the commissioners. We are in a new environment where we're 
speaking of war against a group as against conflict between 
nations, which is what we traditionally understood to mean war. 
When we use the word war, I would suggest that it spawns not 
only the kind of dichotomies which can lead to an 
intensification of conflict but can also create real war. Let 
me give you an example.
    The ``war on terrorism'' led this Nation to attack Iraq, a 
nation that did not attack us. There was no symmetry there in 
terms of the concept of war. And then that further helped to 
create an environment where a rollback of our civil liberties 
became something that some in the Government felt was 
warranted.
    So I guess as we move toward this new environment where we 
speak of creating a civil liberties board, I still would like 
to see this Congress proceed very slowly about creating any 
kind of changes that could either institutionalize a diminution 
of civil liberties, directly or indirectly, advertently or 
inadvertently, or lock us in to a condition where we're 
basically trapped in a war. It seems to me that we're almost in 
a closed loop here. War on terrorism, war of ideas, spawning 
war, cutting back civil liberties, leaving us more vulnerable 
to the destruction of our own democracy.
    I know the commission is well aware, having looked at the 
report, of the threat to our liberty that's at stake here. We 
just saw yesterday, Mr. Chairman, there was a change this week, 
Transportation Security Agency, they're now frisking people, 
frisking people going through airport security. That's a whole 
departure from where we've been. Where does this incursion end?
    So I think we need to, I'm glad the commission has done its 
work, but I see it as a starting point, I might add, not as an 
end point, in the work we have to do here. I'd be happy to hear 
your response.
    Mr. Ben-Veniste. I agree with your last point. We have made 
recommendations, which are in our view, directly responsive to 
what we have found over a rather intensive investigation of 
failures. One of the failures was in our aviation and FAA/NORAD 
security. The recent instances of searches, although I don't 
have the specifics in mind, may reflect the recommendation that 
we made that we have to be more alert to questions of smuggling 
explosives onto airplanes. We cannot ignore what happened in 
Russia. We cannot ignore the fact that apparently two 
individuals on separate flights were able to board aircraft 
with explosives.
    So do we learn from that, what do we learn from that, what 
kinds of steps do we have to take? They should be focused. They 
should not be generalized, I agree. But we have to be smarter 
than we were before. We've got to be more efficient. And our 
recommendations go to that. If we can be, then we can minimize 
the greater degree of intrusiveness into our lives.
    But we also have to be realistic. These things happen and 
we can't ignore it.
    Senator Gorton. Mr. Kucinich, I think our brief answer is, 
we don't believe we've made any recommendations that would lead 
to the adverse consequences you fear.
    Mr. Ben-Veniste. There must be balance. As we make 
recommendations to be smarter and more focused, we also make 
recommendations that there must be countervailing mechanisms to 
protect against mission creep, against generalized use of 
enhanced authorities that would in fact impinge upon civil 
liberties in a more general way.
    Mr. Kucinich. Thank you, sir.
    Mr. Shays. I thank the gentleman. And I'm going to take my 
10 minutes now. I know we've been joined by Carolyn Maloney and 
Mr. Ruppersberger, as well as Mr. Lynch. I want to say that I 
want to get you out, Mr. Ben-Veniste, by 12 o'clock, I think 
that's your need. I could spend all day with you folks.
    I believe, obviously, if this balance, and first off it's 
going to be interesting to have to relate this balance to the 
topic at hand, which is strategies. But obviously with more 
Government power, it requires more Government oversight, that's 
the bottom line.
    Senator Gorton. Absolutely.
    Mr. Shays. That's the bottom line. I was going to respond 
to my colleague Mr. Kucinich's point, thank God they're 
frisking passengers. I'm not riding on planes if they don't 
start to do that on certain occasions. I'm just not flying. 
Because the wakeup call we had were two downed planes in 
Russia. And we can't be certain why they went down, but we 
believe, and I have seen and all of us have seen, the type of 
explosive you can put around your body that just simply doesn't 
show up in any detection.
    But I value Mr. Kucinich's points, and yours as well, Mr. 
Ben-Veniste. I went though to make sure that before this 
hearing leaves, we also get to talk about the strategies. 
Because without the strategies, I don't know where we go. 
Because had we done a proper assessment of the threat, had we 
done a strategy or strategies before September 11th, had we 
reorganized our Government to implement those strategies, we 
wouldn't have had a September 11. I believe that with all my 
heart and soul. Because the strategies would have pointed out 
our weaknesses and it would have done a lot of other things.
    I am absolutely fascinated by the fact that this Commission 
said something. I think we called it terrorism because we 
didn't want to offend anyone. It was this corporeal kind of 
response. And you all, I know, particularly you Mr. Ben-
Veniste, given your focus as a lawyer for so many years, to 
even mention the word Islamist, you must have said, where are 
we going and what does this say. But it gives some focus to 
what we have to protect ourselves from.
    So tell me a little of that debate, a little bit more of 
that debate that took forward in the commission. I want to at 
least have a little more sense of why in the end you were 
willing to say, it's Islamist terrorists.
    Senator Gorton. We debated considerably over that specific 
phrase, Mr. Chairman. I think you can see in our report the way 
in which we attempted to balance it.
    It is clearly a form of terrorism motivated by a 
combination, a marriage of religion and politics that has a 
long and regrettable history. It didn't begin with Bin Ladin 
himself. It is totally intolerant of any kind of dissent. Mr. 
Ben-Veniste mentioned one of its parents in the Wahabi form of 
Islam and Saudi Arabia itself exported to a number of other 
parts of the world. And it was like drinking from a fire 
hydrant to read all the materials we had, not just on the facts 
of September 11 itself, but to try to learn the motivations, 
where it came from and the like.
    It was in doing that we came up with this distinction and 
this dual road to dealing with it. The road that the philosophy 
itself, the activists themselves are utterly irreconcilable, 
there's no way to negotiate with them or reach a common ground 
or an accommodation. And in that case, it is a war. They have 
declared war against us and they have proved it, they have 
killed now hundreds and thousands of Americans as an element in 
that war. And a lack of response didn't slow them down, it 
simply encouraged them.
    But on the other hand, we recognize this is distinct, it's 
a minority within those societies. And we have to do everything 
we can in this struggle or contest of ideas to say that a 
philosophy that promises you nothing but death and destruction 
is not one a majority of those people want. We want to help 
them and to help the progressive elements in those societies to 
build open, free and democratic places in which to live.
    Mr. Shays. Before you respond, Mr. Ben-Veniste, in your 
footnote, which is on page 562, it says, ``What to Do, A Global 
Strategy,'' you say, ``Islamist terrorism is an immediate 
derivative of Islamism. The term distinguishes itself from 
Islamic by the fact that the latter refers to a religion and a 
culture in existence over a millennium, whereas the first is a 
political-religious phenomenon linked to the great events of 
the 20th century.'' I guess what I would love is for you to 
just tell us in response to anything else you want to respond 
to in the question, how do we make sure that people see the 
distinction.
    Mr. Ben-Veniste. Well, we have to reemphasize the fact that 
our struggle is not with one of the great religions of our 
time. We are not engaged in a struggle or war or competition 
with the Muslim religion. And we need to make that abundantly 
clear. We are dealing with, as you have quite correctly read, 
an outgrowth, a small offshoot which combines religious 
fanaticism of the most virulent type with a political agenda 
that is willing to use attacks which seem to fly in the face of 
the teachings of the Muslim religion in terms of attacks 
against innocent men, women and children who are non-
combatants.
    So this use of terror tactics by a virulent political 
offshoot of a religious fundamentalist belief, we're not in a 
struggle with fundamentalism by any means. But when people mis-
use religion and tie it to a political agenda that directly 
threatens us, then we must respond.
    Senator Gorton. Mr. Chairman, you do a better job with our 
report than we do ourselves.
    Mr. Shays. That's good staff work.
    Senator Gorton. You're absolutely right, that footnote was 
the source of the distinctions that we make. Norton has just 
published a hard back copy of this that finally has an index. I 
must say, I found it difficult going around the country often 
to find the places I wanted to find in the original one. This 
one is a lot better.
    Mr. Shays. I'll make sure I get that as well, because that 
will be helpful. Let me just quickly make reference to the 
fact, we have a National Security Strategy in the United 
States. We also have it divided into the National Strategy for 
Combating Terrorism and the National Strategy for Homeland 
Security. One is offense, the National Strategy for Combating 
Terrorism, and one appears a little bit more to be defense, the 
National Strategy for Homeland Security.
    Do you feel comfortable that the National Security Strategy 
of the United States and the National Strategy for Combating 
Terrorism and the National Strategy for Combating Homeland 
Security are integrated? Is there a sense that you have that we 
need to do better? It seemed to me that you kind of reinforced 
these strategies. It may be we don't have enough time to have 
you really respond to this in any depth. But do you have any 
reactions to these three strategies, the overall national 
strategy and then the one dealing with terrorism and the one 
dealing with homeland security?
    Senator Gorton. I think we testified to that in our formal 
testimony here, stating that we think these administration 
initiatives are appropriate and have moved in the right 
direction. I don't think, we've also said we don't think that 
they have emphasized sufficiently this outreach of ideas about 
which we've spoken, and that we don't feel that they are 
complete yet by any stretch of the imagination, even within 
their own terms. It's one of the reasons that we asked Congress 
to pass legislation on restructuring our intelligence agencies 
and the like.
    Mr. Shays. Let me ask you this. Do you think, then, we need 
a new counter-terrorism strategy? That's kind of the bottom 
line. And we even call it terrorism, which makes me wonder. Do 
you want to respond to that?
    Mr. Ben-Veniste. We do believe that there needs to be 
greater integration between offense and defense. That's why we 
have focused on the shortcomings which, as you have pointed 
out, may well have prevented September 11, had we realized them 
sooner and had we taken efforts to correct those shortcomings 
sooner. That's why we make broad recommendations, with respect 
to a national intelligence director with authority to 
coordinate the intelligence agencies, 15 or so, who have 
information, both offense and defense, and make it a much more 
seamless and comprehensive effort by one team, the American 
people team, not credit to one agency, not owning intelligence 
by one agency or another but an obligation to share for the 
common good.
    We recognize that the events of September 11 have pointed 
us inexorably to fixing what was wrong. That's what we need to 
do, and that's why we need to go as far as we have recommended 
in a comprehensive strategy, Mr. Chairman, to address those 
needs. I think you're quite right.
    Mr. Shays. Thank you.
    We've been joined by Mr. Tierney and Ms. Watson. We decided 
we would do 10 minutes when there were four of us and there are 
more. But I think we can get it done pretty well.
    Mr. Platts, I'm just going to say that you can jump in any 
time, because you haven't asked for the 10-minute time. I 
intend to go to Mr. Lynch unless you want to jump in.
    Mr. Platts. I'll defer to Mr. Lynch.
    Mr. Shays. OK, let's do Mr. Lynch. Thank you.
    Mr. Lynch. Thank you, Mr. Chairman. I appreciate your good 
work and also of the ranking member. I want to thank the 
commissioners for helping Congress and this Nation deal with 
our issue of how to develop a national strategy to deal with 
terrorism.
    I want to ask two questions and try to stay within the time 
limit. I'm going to deal with one issue that is of a more 
domestic issue for us, and then I'm going to switch to sort of 
a global issue. I can't help but notice that prior to September 
11th, if you visited any international airport outside of the 
United States, whether it be Leonardo da Vinci Airport in Rome 
or Heathrow in London or Ben GUrion Airport in Israel, you 
already saw that heavy military presence, they were sort of 
combating terrorism far before we were. Yet when you flew 
around, domestically in the United States, we had none of that. 
It was wide open.
    I'm concerned about a trend I see globally, and that is, 
over the last 10 or 12 years we've seen repeated attacks on 
rail systems around the globe. We've seen the Algerian 
terrorists in Paris, we've seen the Chechyan rebels for 10 
years attacking the subway system in Moscow. We've seen what 
happened in Madrid, Spain most recently and the transportation 
systems in Israel are continually subject to attack.
    My concern is that, in your September 11 recommendations 
you talk about focusing on the neglected areas of our 
transportation systems in this country. We've spent about $8 
billion on aviation security. We've spent less than one-tenth 
of 1 percent of that on rail security, even though we have five 
times as many people who travel in this country every day by 
rail than do by air.
    My first question is, do you think that the way we're 
handling this right now is consistent with the recommendations 
of the 9/11 Commission? Do you think we need to change that, 
and what would those recommendations for change be? I know you 
have to keep it general, otherwise we'd have a whole series of 
these volumes. But if I could get your thoughts on that.
    Senator Gorton. The short answer to your question is no. If 
on all of your transportation security 90 percent of the money 
and effort is going into one mode, that's not an appropriate 
balance. You've mentioned rail, there is also of course 
maritime that is vitally important. And we didn't study or 
become experts on particular methodologies to make 
transportation modes safer. That was beyond our charge, it was 
beyond our staff. What we did do and point out is, there does 
need to be a greater balance and we need to look at these 
others and we need to come up with techniques that provide them 
a greater degree of security.
    Mr. Ben-Veniste. I agree completely with Senator Gorton's 
observations. Quite clearly, we point out the fact that the 
greater attention needs to be paid to other areas. We are a 
target-rich environment. We can have attacks occur on any 
number of vulnerable targets which would cause great loss of 
life. Obviously because we have seen the use of airplanes as 
missiles, we focused on that, and I think not inappropriately. 
A train has to stay on its tracks, an airplane can fly anywhere 
and becomes essentially a hijacked weapon of mass destruction. 
And therefore, it is appropriate that we pay attention to the 
potential for the hijacking and suicide use of airplanes, now 
that with terrible consequences this has occurred.
    Whether we could have taken steps in advance of September 
11 is behind us. We now need to focus on the future. And you 
are quite right, sir, in focusing on the example of what has 
occurred in other societies, allies of ours who have suffered 
attacks to their rail systems. Senator Gorton is correct that 
we need greater attention paid to shipping. So we make the 
recommendation that we not put all eggs in one basket.
    Mr. Lynch. Thank you. My last question, and it's tougher, 
this morning there was an article in the New York Times. I 
thought it was illustrative of our problem. It reported of a 
military parade that occurred in Tehran, Iran last Tuesday. And 
at the parade, President Mohammad Khatami said that even though 
Iran was going forward with its nuclear program, that it was 
devoted to peaceful use, and that Khatami was saying that there 
was no need for us to fear and that it was for producing 
energy.
    Meanwhile, in the background behind him in the parade there 
were these Shahab III missiles, capable of reaching Israel. 
What's especially troubling is on the side of the missiles 
themselves were banners. One banner said, Crush America, and 
the next banner said, Wipe Israel Off The Face Of The Map. 
We're in a tough spot here, the President is, everyone is.
    Based on what we hear some leaders saying in the Middle 
East, but what we see them doing, presents a tremendous 
dilemma. It's what I'm worrying about this morning, and 
wondering, you know, I'm very, very grateful, as is everyone on 
this committee and in Congress for your willingness to devote 
your energies and your special talents toward helping us with 
this problem. But I'd like your thoughts on that particular 
dilemma.
    Mr. Ben-Veniste. Well, let me say, Mr. Lynch, that I share 
your concerns. The words of our former President Ronald Reagan 
come to mind with respect to Mr. Khatami's statements, ``Trust 
but verify.'' With respect to what we can do, we must through 
our international collaborative alliances make sure that there 
is proper inspection and that nuclear programs not be mis-used 
for the purpose of creating weapons grade nuclear materials 
which can be used against us or our allies. I don't see getting 
into the weeds here today on anything more specific than to 
recognize that this is indeed a major issue that reasserts 
itself in post-cold war politics, geopolitics.
    Mr. Lynch. Thank you.
    Senator Gorton. The challenge of Iran is a major challenge. 
We weren't the Iran Commission, we were the 9/11 Commission. 
[Laughter.]
    We did not become experts on every element of foreign 
policy. We did, however, make this statement: ``The magnitude 
of the threat demands that preventing the proliferation of 
these weapons warrants a maximum effort on the part of the U.S. 
Government. We recommend expanding the membership and resources 
of the proliferation security initiative and doing all that we 
can do support the cooperative threat reduction program to 
secure control over nuclear materials, so that they do not 
become loose nukes.''
    That doesn't tell you how to respond specifically to Iran. 
It's a major challenge you have in the Congress of the United 
States. To be honest with you, we have had to concentrate on 
our specific mandate that you gave us here in Congress, and to 
get back to urging, expressing the strongest possible hope that 
the Congress this year, in these next 2 or 3 weeks, can take 
significant action toward adopting those recommendations.
    Mr. Lynch. Thank you, Senator. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I again appreciate 
both of our witnesses here today, your participation but 
especially your work on the commission. As a Nation, we're all 
indebted to you and your fellow commission members.
    I was hoping as we move forward and the consensus about a 
national intelligence director is evolving and following much 
of your recommendation if you could expand on your thoughts on 
the breadth of that authority and the responsibility of the NID 
and specifically with regard to the current entities under the 
Secretary of Defense and how the impact could be on the chain 
of command within the military.
    Senator Gorton. Way back in the late 1940's when the 
Congress created the CIA, it in theory made the CIA director 
the head of all intelligence activities. But it gave that 
director no authority over the budget beyond the CIA's 
immediate budget itself, and no authority over personnel. And 
as you know, it has turned out that 80 percent or more of the 
budget for intelligence in a very broad sense is controlled by 
the Department of Defense through many of its agencies.
    We found that one of the principal failures leading up to 
September 11 was the lack of communication among various 
intelligence agencies, even with that wall within the FBI, but 
certainly among the various agencies themselves, and our system 
failed. We start with the proposition that the system that we 
had was a miserable failure. And we have twin recommendations 
in the area that you're speaking to, a national 
counterterrorism center and a national intelligence director.
    We feel very strongly that national intelligence director 
must have broad authority over budget and at least over senior 
personnel. If not, if you just create a shell of a national 
intelligence director, you've just added one more person, one 
more box in that organizational chart. I think if we've learned 
anything since 1947, it is that if someone is going to have 
that title, they had really better have the authority to do it.
    Now, at the same time the Department of Defense and our 
armed services obviously live on intelligence. The way that it 
has come out I think in the Shays bill and certainly in what 
Senators Collins and Lieberman are doing is a distinction 
between the direct day to day military intelligence, which 
stays there with those armed services and what is defined as 
strategic intelligence. Nor is the Department of Defense kept 
totally out of the ladder by any means. But we do think it's 
important to have one focus for tasking and one focus, one 
place where the individual in charge has the authority to 
demand a sharing and then to task where there are empty spots, 
where we haven't looked.
    So we certainly think that progress is being made in the 
Senate at this point, and that division is the right direction. 
And I believe the Shays-Maloney bill does the same thing.
    Mr. Ben-Veniste. I agree.
    Mr. Platts. And that's kind of supporting Chairman Shays' 
approach, as in the Senate, one in distinguishing between 
strategic and theater intelligence----
    Senator Gorton. And operational help.
    Mr. Platts. Within that strategic intelligence, that's from 
the Department of Defense that there be maybe a shared 
authority between SECDEF and NID over those personnel that it 
may not be absolutely one or the other, correct?
    Senator Gorton. Yes.
    Mr. Ben-Veniste. Within that narrow area, within that 
specific area.
    Mr. Platts. Right, on strategic intelligence.
    The one other area I'll touch on quickly is the very 
important message you've conveyed in the commission report and 
here today is truly winning the big picture and defeating 
Islamist terrorism, not just al-Qaeda specific. And could you 
expand on how, in winning the ideological battle, any specifics 
that we should be looking at, and would that include our 
relations with nations like Saudi Arabia in pressure for the 
Saudis to change how they treat their own citizens?
    Senator Gorton. That is, of course, if that were an easy 
question to answer, it would have been answered already. Saudi 
Arabia has been a nominal ally and at some level a real ally of 
the United States for an extended period of time. But its views 
on some of this ideology didn't really change greatly even 
after September 11.
    It changed very dramatically a year ago last May when it 
turned out that the Saudi regime was a target of the very 
philosophy that it had created itself. That relationship is 
better now, but we have still not persuaded the Saudis to stop 
exporting, to stop subsidizing this very intolerant and 
extremist form of their religion here in the United States and 
in many other places in the world. It clearly should be a goal. 
Obviously it should also be a goal for countries like that to 
liberalize. Saudi Arabia may be the toughest, the most 
discriminating against women of all the scales in those 
societies. It's hard for us to figure that you can have a 
really successful society and engage in that form of 
discrimination.
    Mr. Ben-Veniste. We've had some success, particularly with 
respect to funding of terrorist organizations from the Saudis 
since they were struck on their own soil by terrorists. This 
will occur to other countries as time goes on that the threat 
of this virulent group of terrorists which seeks to overthrow 
virtually everyone who does not share their beliefs will impel 
them to be more cooperative. Slade is correct with respect to 
the export of Wahabism. We would hope over time that will be 
moderated. We have recommendations with respect to competing in 
the educational arena with that form of intolerance. But these 
are longer term efforts that we must pursue, in our view, 
alongside the more direct and focused attempt to kill those who 
have launched attacks against us.
    Mr. Platts. In winning that battle with the individuals, 
those young citizens in Muslim nations that we are not their 
enemy, but we are a Nation of good and very humanitarian in 
nature, we contribute a sizable amount of money to the U.N. to 
provide humanitarian, whether it be food, health care, 
education, other forms of assistance in many of these nations. 
Should we be looking at doing that more directly so that, the 
U.N. is not loved, that is for sure, but probably looked more 
favorably at the aid coming from them than if it was coming 
from us directly. Should we be looking at more direct 
intervention in even the humanitarian side?
    Mr. Ben-Veniste. I don't think I am competent to provide an 
answer to that question. Looking at the simple psychology of 
human beings, it is often the case that those who directly hand 
out aid, if it's not done well, will create further resentment. 
So it is not an easy question to answer.
    But quite clearly, we need to do a much better job of 
communicating what we are about in this country, what our core 
values are. Because fundamentally, a mother raising children in 
this country shares much more with a mother in any of the 
Muslim countries that we're talking about than do those who 
preach suicide and violence. That's what we need to focus on. 
It's not going to be something that will occur today or 
tomorrow or next year. But it is an objective that we must 
pursue with a determination and recognition that it is 
essential that we do so and do so more effectively than we have 
in the past.
    Mr. Platts. Great. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman. I just will quickly, 
before recognizing Ms. Maloney, point out that we had a hearing 
on February 3rd regarding effective strategies. We had one of 
the witnesses, Dr. Lanny Kass, Professor of Military Strategy, 
National War College. He had various points he was making, 
talking about the end game and what terrorism is and so on. 
They were just very helpful comments, why do they hate us and 
points there. He said in one of them was why we will win, and 
the answer was, we can't afford to lose, which was an 
interesting way to put it.
    But when he talked about integrated strategy, one of his 
bullet points was we need to break fundamental asymmetric 
symmetry wherein we need to succeed 100 percent of the time and 
they need to be successful only once. It's kind of an 
interesting concept. They only have to be successful once. We 
have to succeed 100 percent. Then he said, you don't start 
developing strategy from point of failure, you seize the 
initiative and shape it, which is an interesting concept as 
well.
    Ms. Maloney, you have the floor for 10 minutes.
    Ms. Maloney. Thank you so much, Chairman Shays, and welcome 
to both of our panelists. A very special welcome to Mr. Richard 
Ben-Veniste. I remember your work on the Nazi War Crimes 
Disclosure Commission, which oversaw the largest opening of 
secret government records in the history of our country. You 
brought a great dedication to bringing these documents to the 
American public and I congratulate you for that work, too.
    You've done an incredible job, and I hope you continue 
being a supporter of implementing the document that you 
prepared. Mr. Hamilton and Mr. Kane said that the 41 
recommendations were tied to specific acts that if we corrected 
them would make America safer. So many of us are very dedicated 
to implementing all of your recommendations, and in that spirit 
Chris Shays and I introduced H.R. 5040, which is the same as 
the McCain-Lieberman bill that really supports all 41 
recommendations. It has been endorsed by the September 11 
families and by the two chairs of the committee and the 
commissioners. We thank you for that.
    We have now well over 40 some sponsors and a caucus meeting 
this afternoon with vice chairman Hamilton on how we can work 
in a bipartisan way to implement it. Yet I read in the paper 
today that the majority has indicated that they will have a new 
bill on Friday. No one has seen this bill, but I am told that 
it's hundreds of pages long and it is rumored, this is 
according to the press, to have a whole litany of provisions, 
unrelated provisions that are not part of the 41 
recommendations of the 9/11 Commission.
    So instead of working off the document that your commission 
came forward with, and really your document is the one that we 
have been holding hearings on for the past 2 months, this 
Congress, I congratulate them for working through August, very 
diligently, on various hearings and oversight. And you gave us 
an absolute playbook of what needs to be done.
    But now we're told that we'll have a new base bill, not the 
base bill of your recommendations that is filled with non-
related items. So my question is, basically I hope this 
commission will come forward with common sense and put 
credibility behind whatever bill finally goes to the Floor. I 
think everyone supports combating terrorism, making America 
safer. The question is, how do you do it. I'm troubled by the 
reports that I'm reading, that it is filled with unrelated 
items that are not specifically related to the purpose and 
recommendations of the commission.
    Senator Gorton. Ms. Maloney, we worked hard----
    Ms. Maloney. I know you did.
    Senator Gorton [continuing]. For 20 months. When Richard 
and I met, I'm not at all sure we knew then that we'd be joined 
at the hip, both in the work of the commission and in working 
on it afterward. But we have, as you know, created a non-profit 
to keep a small staff together, and to keep us informed of 
what's taking place here. We have provided comments and what we 
think is constructive criticism of all of the proposals, 
including your own, and including the proposal that's very 
similar to it that's now, I think, being marked up as we speak 
in the Senate, which seems so far to be going very much in the 
direction that the Commission has recommended.
    So you may be assured that we will comment on any new 
proposal that comes out, long or short. Because it is our goal, 
it is our goal and our strong recommendation that the Congress 
follow the recommendations of the commission and put into 
statute those that are appropriate between now and your 
adjournment, which is relatively soon. We think it would be a 
terrible mistake to get through two different bills in the 
House and Senate and be unable to reconcile them, and leave 
until some time in January, leaving us in the situation in 
which we find ourselves today. We really want action, we want 
consistent action. We will examine every proposal that comes 
out with that in mind.
    Ms. Maloney. Thank you so much, Senator. In fact, we have 
put in a bill to extend the commission. I am so glad you have 
worked with a non-profit to support your work.
    In line of commenting on various proposals, the commission 
recommended that the high threat formula be specifically for 
high threat and not used as pork, that it should be directed to 
where the threat is. As a representative of September 11, of 
New York City, which in every terrorist report is target No. 1, 
I think that's appropriate and important. I understand you 
spoke about that today.
    So I'd like to ask you about the Cox bill, which is now 
before us that is very well intentioned, yet it continues with 
a system of funding all States at a certain amount regardless 
of whether or not they have threat at .25. Then it goes up to 
.45 for States with international borders. And there are some 
restrictions in it that seem to me difficult for areas of large 
populations. For example, it caps construction projects at $1 
million. I would say every construction project in New York, to 
either fortify the Port Authority or the rail or the airports, 
has been over $1 million. And it seems to be possibly leaner 
pork, but still pork. Your comments?
    Mr. Ben-Veniste. Well, first of all, let me thank you for 
your generous remarks and personal remarks, and commend you for 
your leadership with respect to the legislation that made the 
Nazi War Crimes Disclosure Act a reality, and for your guidance 
and oversight over the many years in which we have labored. 
We're still not finished.
    With respect to the Cox bill, I confess that I'm not 
familiar with the specifics. It is our understanding that it is 
again a step in the right direction, but your characterization 
of leaner pork may well be an appropriate one, in that our 
recommendation is that these funds be not considered as a 
general appropriation for each and every jurisdiction to get 
some sort of share, but rather be directed and focused at 
communities which pose the greatest level of threat.
    Ms. Maloney. Thank you. Any comment, Senator Gorton?
    Senator Gorton. I agree with Richard, as usual.
    Ms. Maloney. That's great. I also would like to place in 
the record an editorial on defense of civil liberties.
    Mr. Shays. That has already been put into the record.
    Ms. Maloney. Oh, it has. OK. But the commission's report 
recommended that a board be set up to oversee the Government's 
defense of our civil liberties. Although they were good 
intentions, a board was appointed by the President that appears 
not to reflect the intent of the 9/11 Commission in that it has 
no subpoena authority, cannot initiate investigations, can 
conduct meetings behind closed doors, and unlike strategies 
we're discussing today, this board has no stated mandate, has 
no obligation to issue any type of reports and absolutely no 
independence at all.
    I would like to ask both of you to comment on the steps 
that have been taken so far and whether you think they're 
adequate or whether they need to be strengthened in this 
particularly important area of civil liberties.
    Mr. Ben-Veniste. Congresswoman Maloney, I wrote an 
editorial myself along with Lance Cole, Professor at Dickinson 
Law School, on this very subject, which was published in the 
New York Times on the 7th of September. I share your concerns, 
the commission shares the concerns that while it is I think 
helpful that the President has recognized the need for such a 
civil liberties board, the proposal from the Whit House does 
not meet the objectives that led the commission to make its 
recommendation.
    First, with respect to personnel, we believe that the 
recommendation or the board proposed by the President in his 
Executive order of 20 individuals from the very agencies that 
require oversight does not solve the problem. We recommend that 
there be an independent board of persons drawn from the outside 
community who will likely be more objective and disinterested 
in performing the task.
    We suggest that it's a good idea to have ombudsmen in the 
various agencies who are able to receive complaints and monitor 
the way their various agencies are performing, and to bring to 
the attention of this bipartisan, independent board whose 
members should be confirmed by Congress, we believe by the 
Senate, which will enhance focus and the importance of such 
oversight responsibilities. And these ombudsmen will have 
authorities and the individuals who may come to them will have 
the protections necessary for candid revelations that will make 
such a board effective and useful.
    And finally, if I may say, that board should be 
transparent. It should report regularly to Congress and to the 
American people.
    Senator Gorton. Basically we support the board that you 
have in Shays-Maloney and that exists in Collins-Lieberman.
    Ms. Maloney. Well, thank you very much, and I request the 
chairman to place your article of September 7th into the 
record.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T8354.018
    
    Ms. Maloney. My time is up. Actually there is a conflict, 
there is a meeting right now in the Financial Services 
Committee on which I serve on September 11 recommendations, 
which is the story of the day. We're holding a great deal of 
meetings and oversight. Thank you both for your work and your 
dedication.
    Senator Gorton. Godspeed. Thank you.
    Mr. Shays. At this time I would recognize Mr. Tierney and 
thank him for being here, and for all the meetings he's been 
here as well.
    Mr. Tierney. Thank you, Mr. Chairman. Thank you for your 
continued work on this. I think that the members of the panel 
might agree that Mr. Shays has used his position in the way the 
oversight committee ought to be used, and it drops into what 
I'm going to talk about next.
    I want to thank both of you gentlemen for your service to 
the country. I know it's been a sacrifice of your own personal 
time and effort and your expertise has been invaluable to all 
of us. But I also want to thank your staff, who sits quietly 
behind you there, but I know was very instrumental, like staff 
here are. I think sometimes we neglect to put in a good word 
for them.
    Senator Gorton. Squirming at times at our answers.
    Mr. Tierney. Because they couldn't hook up a direct line in 
your ear. [Laughter.]
    Let me segway from what Congressman Maloney just talked 
about in terms of the fact that she is leaving now to go to 
another committee, essentially going to deal with another 
aspect of the 9/11 Commission report and homeland security and 
intelligence. You make recommendations in the report about the 
need for strong congressional oversight. And I think you're 
right on the money there. I'm very concerned that while we're 
moving ahead a little bit on trying to implement some of your 
recommendations, we have a number of bills that are out there 
and hopefully going to be considered, and I agree with you, 
Senator Gorton, considered soon, sooner rather than later.
    I'm very concerned that Congress, particularly the House, 
hasn't yet started down the path of what we're going to do for 
oversight. The recommendations that were made by the committee 
were that we should either have one joint committee of the 
Senate and the House or one designated committee in the House 
and one designated committee in the Senate. Would each of you 
tell me what your personal preference was?
    Senator Gorton. Chairman Shays, earlier during the course 
of this hearing, said what I expect is obvious, that in all 
probability, this issue wasn't going to be dealt with 
definitively this year. We do feel it very important that it be 
dealt with definitively at some point or another. Unlike our 
recommendations for a national counterterrorism center and a 
national intelligence director, we didn't say, here's one way 
in which to accomplish this goal.
    We looked back, we heard a number of people speak to us 
about the old Joint Committee on Atomic Energy, which seemed to 
a very powerful and influential committee in its day. And we 
found that an attractive alternative, but not the only 
alternative.
    We did find one of the shortcomings being this total 
separation, which certainly I do a lot in the Senate, of 
oversight authority from money. And any people on the 
intelligence committees have expressed frustration in the fact 
that they worked very hard on these issues to come up with 
specific recommendations and can effectively be ignored because 
they have no power of the purse. That is done by a committee 
that doesn't have nearly the expertise in this field that, say, 
the intelligence committees do themselves. Most dramatically, 
we looked at the huge number of committees and subcommittees to 
which the Department of Homeland Security reports, I think 
often, derogating from its ability to do the job that it was 
set up by statute to do.
    My own view is that you can pick one of several courses of 
action that concentrates this authority more and that includes 
people who are genuinely interested in the oversight function 
and greatly improve the way in which Congress operates. In this 
particular case, we aren't wedded to a single solution.
    Mr. Tierney. You don't have a preference, you're saying?
    Senator Gorton. Pardon?
    Mr. Tierney. Other members of the commission I've asked 
this question to had a preference. You personally don't have a 
preference?
    Senator Gorton. I didn't serve long enough or go to have 
remembered that joint committee. I think I personally, I found 
it fairly an attractive alternative.
    Mr. Tierney. Mr. Ben-Veniste.
    Mr. Ben-Veniste. I agree with everything that Slade Gorton 
has said. I think some of the things we talked about were an 
integrated professional staff, no term limits on membership, 
the necessity of developing expertise in this area, being able 
to ask the right questions, being able to keep one's eye on the 
ball is critical to effective oversight. I too have no specific 
preference to getting it done right. But it's quite clear that 
there needs to be a consolidation and a reduction in the number 
of different entities looking at oversight.
    But we also take the position that oversight needs to be 
more effective. The more authorities granted to the executive, 
the more important oversight becomes and the more critical 
effective oversight is to the constitutional balance of powers 
that we rely upon. It is absolutely critical that this be done.
    Now, we are not naive. We know that this is among the most 
difficult recommendations we made. And I will tell you candidly 
that talking to Members of Congress, present and former, over 
time, during our deliberations and inquiries, we learned from 
them that they would be unable to do it on their own. It's not 
something that anyone thought could be the product of self-
starters in the Congress.
    But now, having from this extraneous to the Congress body 
of individuals who are operating in a bipartisan way, we saw 
the dramatic need to make these changes. And hopefully, they 
will be accomplished. Our recommendations are of a piece. They 
are interdependent and interrelated. If we have greater 
authorities focusing on our making the executive more powerful, 
then we must have more effective oversight by the Congress.
    Mr. Tierney. I absolutely agree, and I think many of us do 
on that, but that brings me to the next level of this question. 
I think it's almost dangerous to give that kind of authority to 
the executive, whoever's in office, without concomitantly doing 
something about oversight at the congressional level.
    So Senator, starting with you, because you served here, how 
do you see that being done, given the personalities, given the 
jurisdictions, given the turf that people are going to try to 
protect? Is this something we're going to have to move 
statutorily and try to get the larger body to impose it as 
opposed to going into the rules of the House or the Senate, or 
if it's going to be the rules of the respective bodies, how do 
you think we get over that hurdle?
    Senator Gorton. Oh, boy, that is a real challenge. I 
hesitate to advise the House on that. But that is going to be 
the reform that will be the most difficult for you. It's easier 
for Members of Congress, when I was a member, equally so, to 
say here are reforms that ought to be made in the Executive. 
When you say here are reforms that ought to be made here, 
you're always goring someone's ox. To concentrate authority in 
fewer people means to take some authority away from others. And 
no human being likes that very much.
    But this is, it was an unprecedented catastrophe that 
happened to the United States, and there is no way of looking 
at it other than to say that all of our institutions from top 
to bottom failed and that we need to do things differently and 
better. And one simply has to hope that generous feelings of 
statesmanship will triumph and we will do them better in the 
future.
    Mr. Tierney. I assume Mr. Ben-Veniste has the same----
    Mr. Ben-Veniste. I'm just a country lawyer. [Laughter.]
    I don't presume to have answers to this question, except to 
say it's got to be done.
    Mr. Tierney. Let me move on, then. In your report, you talk 
about the fact that we need to confront the U.S.-Saudi 
relationship. Do you think, the report is a little bit quiet, I 
think, on Saudi Arabia, it doesn't deal with the classified 
pages that were in Congress' larger report, it doesn't talk too 
much about the fact of a number of Saudis being allowed to 
leave this country almost immediately after the event without 
thorough FBI examination.
    Senator Gorton. Oh, it does deal with that. No, Mr. 
Tierney, it very definitely deals with that.
    Mr. Tierney. You think it does, in detail, Senator?
    Senator Gorton. Absolutely, yes.
    Mr. Tierney. Well, I might respectfully disagree with that 
in terms of the depth of it. I was going to ask you, without 
disrespect to your work, and I always want to make that clear, 
do you think that the committee did an exhaustive job in 
reviewing the Saudi-U.S. relationship, and what do you 
recommend as ways that the U.S.-Saudi relationship should be 
confronted as we move forward?
    Senator Gorton. Well, I suppose to one person it is 
exhaustive and to another person it is not. This was central to 
the work of the 9/11 Commission, 15 of the 19 hijackers were 
Saudi citizens. Some of the philosophy, Bin Ladin is a Saudi, 
most of his financing that we could determine came from Saudi 
sources. We found no governmental sources in that, but simply 
the way that society operates through its religiously oriented 
charities is the way in which this entire operation was 
financed. It's very, very important.
    We did look as carefully as possible into the Saudis who 
left afterwards. And we found nothing out of the ordinary 
there. The FBI has told us they looked into every single person 
that they felt it was appropriate to look into. There was 
really nothing more to be done. We do not, generally speaking, 
restrict people from leaving the United States when they are 
citizens of other countries.
    We have found, as I answered, I think, over here----
    Mr. Shays. Could I just interrupt the gentleman a second?
    I just want to make sure that Ms. Watson gets to respond to 
questions, and we're getting to a deadline. Mr. Ben-Veniste, do 
you have time to stay? If you could just shorten your answer.
    Senator Gorton. The answers is that one of the three 
countries we write about in here with respect to our 
relationships is Saudi Arabia, because it is important. 
Cooperation exists in a very good fashion at some levels, and 
at not a very good fashion at other levels. It's a tremendous 
challenge for us here in the United States to try to move Saudi 
Arabia in an appropriate direction. It is certainly one of the 
most, if not the most important of all the relationships in the 
Middle East.
    Mr. Shays. I thank the gentleman. Ambassador Watson.
    Ms. Watson. Thank you so much. I want to commend you two 
gentlemen for the role you have played in gathering all the 
information and recommending to us a direction. I find it very 
fine and profound work. Thank you from a grateful Nation.
    I notice that with in your report, you said that you 
focused on Islamist terrorism, because it's the leading 
national security threat to the United States. And I support 
your recommendations 100 percent. My concern is, we talk about 
the failure of our intelligence sector. And what we really are 
talking about are the people within intelligence, the human 
capital which is our most valuable asset. We didn't see a whole 
lot of concentration on how these people are empowered, how 
they are managed, and what would be the key to reform.
    If we are going to focus on Islamic terrorism, are we not 
advancing a war against the Islamic world? And should we not 
get people who are familiar with the mind set of that 
particular world and how they think and how they function and 
what processes they go through? How are we going to meet that 
need if we're going to focus on the extreme Islamic terrorists? 
How do we work with our human capital? Can you respond?
    Mr. Ben-Veniste. You've raised many important and 
interesting questions. With respect to the distinction between 
the Islamist terrorists and the religion of Islam, we make the 
distinction very carefully and clearly that this country is not 
at war nor do we oppose any religions in the world and 
certainly not the great Muslim religion. We do identify----
    Ms. Watson. May I interrupt you to say that hearing the 
President, he says we're at war, and then reading this report 
and you say we cannot defeat Islamist terrorism if we cannot 
persuade young Arabs and Muslims that there is a better course.
    Mr. Ben-Veniste. Yes.
    Ms. Watson. And really my question is, how do we train, how 
do we select the people who work in intelligence so that they 
can meet what you have concluded is the path to go?
    Mr. Ben-Veniste. Quite clearly there are two elements to 
this. One element is the people who are working in intelligence 
on various different levels and the others who are working in 
connection with our foreign policy. In both areas, we must 
obviously have people who have studied and are familiar with 
the Muslim world. We make recommendations with respect to 
increasing human intelligence, this is an area that we found 
had been neglected over time at CIA in favor of spending money 
on hardware. It's essentially continuing cold war 
appropriations or cold war related priorities as compared with 
human intelligence. So in our intelligence community we make 
recommendations both foreign and domestic in connection with 
our intelligence gathering that we have a greater emphasis on 
language skills and familiarity with local cultures.
    With respect to our foreign policy, we lay out 
recommendations where we must do better in convincing Muslims 
throughout the world that the way of these fringe groups of 
terrorists is not the way that they ought to follow, it doesn't 
benefit them. We have talked here today rather extensively 
about what will appeal to families throughout the world and 
find that Muslim mothers throughout the world will have far 
more in common with American mothers than they will have in 
common with terrorists who seek only death, suicide and 
destruction for their children. So we must make that case in a 
better way, and in doing so, we must understand our target 
audience better. You're quit right about that.
    Senator Gorton. You may have asked us the most difficult 
question of all. But first, I do want to make the distinction 
that the chairman actually pointed out. We use a term, Islamist 
terrorism, that is defined best in that footnote at page 562 
that the chairman laid out, and that makes the distinction 
between the actual violent contest in which we find ourselves 
engaged today and these other ideas. Clearly, intelligence, 
human intelligence failed and clearly we want more 
sophisticated and knowledgeable people there.
    I'm told, I can't swear to this, that during the entire 
cold war, the United States never placed an operative in the 
Kremlin, for all the contest and all of the money we spent on 
it. We had sources there from time to time, but they were 
always, they were brave Russians who were disaffected with it, 
and most of them paid for it with their lives. But we never 
trained someone over in Langley as an American and got them 
into the inner sanctum of the Kremlin. It would be wonderful if 
we could train someone and have them as the No. 2 assistant of 
Osama Bin Ladin, but I don't think we should hold our breath 
until that takes place. We've got to do that in other ways.
    And Richard described that. Some of it is training and the 
like of our people here in the United States. The FBI, we've 
found, in doing a very good job, I think a better job than the 
CIA, with respect to terrorism, because it's saying to its 
recruits, you've got to learn both law enforcement and 
terrorism, you've got to have assignments in both, you've got 
to learn how to work together. We want to give you a very 
productive career in counterintelligence and in 
counterterrorism. So we just say, institutionalize what the FBI 
has done. The CIA has a longer way to go in that connection, 
but it's got to do a much better and broader job of recruiting 
than it's done in the past.
    Ms. Watson. If I might finish up, Mr. Chairman, it will 
take me just a minute. I think that Lou Stokes, when he was 
here back in the 1980's, initiated a program where they went to 
the historically black colleges and they recruited young people 
and they brought them into the State Department and they 
trained them in languages. What occurs to me is that people who 
look like them ought to be speaking to them. I think where we 
really miss the boat is not identifying people who might have 
an Arab background or ancestry or something and bringing them 
in and helping others who are already with the intelligence, 
the Department, really understand how people think.
    Right now I feel, and what I'm hearing and what's been said 
on the TV today, that this is a Jihad. They feel we are at war 
against their religion. And how we change that is going to be 
very important. We're going to be fighting this battle for 
decades to come. I don't see an end to it. So I think we have 
to be real smart and clever. I thank you because you started 
the thinking. I'm not holding you responsible for implementing 
it.
    Mr. Ben-Veniste. Thank you. [Laughter.]
    Ms. Watson. But I just want to raise these issues in the 
context of the hearing. You know, we've got to start thinking 
differently, non-traditionally if we're ever going to succeed. 
We can paint a beautiful picture, and you know, the 
administration will continue to say we're winning. We are not 
winning, the thing is getting worse. And have on TV, the yell, 
the agony of somebody getting their head sawed off, shows that 
we're not nearly finished. I don't care how long you talk about 
it. We've got to take action, we've got to train people better 
to use that human capital if we're going to succeed as a 
Central Intelligence Agency.
    Thank you so much for your input, and I just wanted to 
raise it as an area that I thought wasn't given enough 
attention. Thank you.
    Mr. Shays. We're going to dismiss this panel. I'm going to 
make a comment, I'm not asking for the last word, I'm happy to 
have a response back. When I saw the yell of the head being 
cutoff, I wanted to hear the yell of people in the Islamic 
world that would say, this is not Islam. We're starting to hear 
it.
    But I also want to say, there was a statement made earlier 
that I just want to comment on. We are seeing more terrorists 
today than before. But we saw more terrorists before September 
11th by inaction as well. So I think that needs to be put in 
the mix. I would like to just ask this one last question, I 
don't think it requires a long answer.
    One question is, why don't we allow the GAO to assist with 
oversight of the intel community and for instance, our 
committee technically had jurisdiction, technically has 
jurisdiction of the intelligence community. But when we wanted 
to have hearings, the CIA would always, for instance, get a 
permission slip from the Committee on Intelligence that they 
did not need to attend. They also, the GAO continually has 
resistance when they look at things relating to the 
intelligence community.
    My question is, did your commission look at this and did 
you come up with any recommendation as it relates to GAO?
    Senator Gorton. No, I don't think we did. I suspect the 
reason for that is that they aren't cleared.
    Mr. Shays. Well, there are lots of reasons. But they are 
clear.
    Mr. Ben-Veniste. While we don't talk directly to GAO, an 
organization about which I have the utmost respect and 
confidence, but we do talk about greater transparency, we talk 
about the over-classification of materials and we could go on 
for hours on that subject alone. But we think Government wide, 
there has to be a much greater respect for the fact that we're 
all on the same team and that we need to bring our resources to 
bear in the most efficient and effective way possible.
    Senator Gorton. And the declassification of at least the 
top lines on the intelligence budget we think is long overdue.
    Mr. Shays. I think that one change would be huge. Because 
then our budget becomes a lot more honest. We don't have to 
hide things in a budget. We just have a line for it, and we 
don't have to stick them in other places and give people the 
impression that we're spending more in an area where we may not 
be spending money.
    But I also would say, we had a hearing on this whole issue 
of over-classification. The hearing started by saying, we have 
a 10 to 90 percent over-classification. When we asked the DOD 
Governmental witness how much over-classification, she said 
approximately 50 percent, which we appreciated. That was an 
honesty that we appreciated. But it's a huge, huge mistake to 
over-classify. We can talk about so many things.
    Any last words? OK. Gentlemen, we praise you and we thank 
you and we'll get to our next panel.
    We want to welcome our second panel, which consists of Mr. 
Norman Rabkin, Managing Director of the Homeland Security and 
Justice Team, U.S. Government Accountability Office; Mr. 
Raphael Perl, Senior Policy Analyst, Congressional Research 
Service; and Mr. John V. Parachini, Senior Policy Analyst with 
the RAND Corp.
    Gentlemen, why don't you stand and I'll swear you in.
    [Witnesses sworn.]
    Mr. Shays. Thank you.
    We evidently have two votes. So what I think we'll do is 
just start, then we'll go and come back. I really am looking 
forward to this panel, thank you very much.
    We'll start with you, Mr. Rabkin.

   STATEMENTS OF NORMAN RABKIN, MANAGING DIRECTOR, HOMELAND 
   SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY 
  OFFICE; RAPHAEL PERL, SENIOR POLICY ANALYST, CONGRESSIONAL 
RESEARCH SERVICE; AND JOHN V. PARACHINI, SENIOR POLICY ANALYST, 
                           RAND CORP.

    Mr. Rabkin. Thank you, Mr. Chairman, members of the 
subcommittee. I appreciate the opportunity to appear before the 
subcommittee today to address three issues of interest: the 
extent to which elements of the National Homeland Security and 
Combating Terrorism Strategies are aligned with recommendations 
issued by the 9/11 Commission; second, the Departments that 
have key responsibilities for implementing the Homeland 
Security Strategy; and third, the challenges that are faced by 
these key departments in assessing their progress toward 
achieving homeland security objectives.
    First I will talk about the connections between the 
strategies and the 9/11 Commission recommendations. The 
Homeland Security Strategy with a domestic focus sets out a 
plan to organize Federal, State and local governments as well 
as private sector organizations to accomplish six critical 
missions. It also identifies 43 major initiatives to be 
addressed within each of these 6 mission areas. The Combating 
Terrorism Strategy with an overseas focus emphasizes 
identifying and defusing threats before they reach the borders 
of the United States. This strategy seeks to accomplish its 
goal of reducing the scope of terrorism through 4 strategic 
goals and 15 subordinate objectives.
    The 9/11 Commission report contained 41 recommendations. 
Our analysis shows that eight of the recommendations are not 
aligned with any of the specific initiatives in the Homeland 
Security Strategy or with the objectives of the Combating 
Terrorism Strategy. These eight recommendations generally 
pertain to reforming the intelligence community and 
congressional oversight of both homeland security and 
intelligence matters. Because the National Strategies are 
expected to evolve over time, they can be updated to reflect 
these recommendations.
    The remaining 33 commission recommendations are aligned 
with the specific initiatives of the Homeland Security Strategy 
and the objectives of the Combating Terrorism Strategy. For 
example, the commission recommended that DHS quickly implement 
a biometric entry-exit system as part of the screening process 
for people passing through U.S. ports of entry. It also 
recommended that DHS design a comprehensive border screening 
system that could be extended to other countries. These 
recommendations align with the Homeland Security Strategies 
initiative to create smart borders.
    As another example, the commission recommended that 
emergency response agencies nationwide adopt the incident 
command system. The Homeland Security Strategy calls for the 
creation of a national incident management system.
    The second issue is regarding key departments responsible 
for implementing the Homeland Security Strategy. Our 
preliminary analysis identified six departments as having key 
roles in implementing the strategy: DHS, DOD, HHS, the Justice 
Department, the Energy Department and the State Department. 
These six departments represent 94 percent of the proposed $47 
billion budget for Homeland Security in fiscal year 2005.
    DHS is designated as lead agency for 37 of the 43 
initiatives in that strategy. But many of these initiatives 
have multiple lead agencies. For example, DHS, State and 
Justice each have been designated as a lead agency to create 
smart borders. In situations like this, effective coordination 
among the involved agencies is very important to achieve the 
expected results. In the forthcoming report for the 
subcommittee, we'll provide much more detailed information on 
these departments' efforts to plan and implement the 
strategies.
    Third, as these departments continue to implement the 
Homeland Security Strategy, the development of performance 
standards and measures will help them assess their progress in 
implementing homeland security goals. Once they are 
established, performance measures can be used to determine cost 
effectiveness of specific initiatives. Development of standards 
will also provide a means to measure preparedness and guide 
resource investments.
    We have reported on difficulties the agencies are having in 
developing a comprehensive set of preparedness standards for 
assessing first responder capacities, for identifying gaps in 
those capacities and measuring progress in achieving 
performance goals. We have also reported similar challenges in 
developing standards and measures for bioterrorism preparedness 
in interoperable communications for first responders.
    Mr. Chairman, this concludes my formal statement. We look 
forward to providing you with a more detailed report on the 
plans, activities and challenges regarding those departments 
involved in the Homeland Security Strategy. I'll be pleased to 
answer questions.
    [The prepared statement of Mr. Rabkin follows:]

    [GRAPHIC] [TIFF OMITTED] T8354.019
    
    [GRAPHIC] [TIFF OMITTED] T8354.020
    
    [GRAPHIC] [TIFF OMITTED] T8354.021
    
    [GRAPHIC] [TIFF OMITTED] T8354.022
    
    [GRAPHIC] [TIFF OMITTED] T8354.023
    
    [GRAPHIC] [TIFF OMITTED] T8354.024
    
    [GRAPHIC] [TIFF OMITTED] T8354.025
    
    [GRAPHIC] [TIFF OMITTED] T8354.026
    
    [GRAPHIC] [TIFF OMITTED] T8354.027
    
    [GRAPHIC] [TIFF OMITTED] T8354.028
    
    [GRAPHIC] [TIFF OMITTED] T8354.029
    
    [GRAPHIC] [TIFF OMITTED] T8354.030
    
    [GRAPHIC] [TIFF OMITTED] T8354.031
    
    [GRAPHIC] [TIFF OMITTED] T8354.032
    
    [GRAPHIC] [TIFF OMITTED] T8354.033
    
    [GRAPHIC] [TIFF OMITTED] T8354.034
    
    [GRAPHIC] [TIFF OMITTED] T8354.035
    
    [GRAPHIC] [TIFF OMITTED] T8354.036
    
    Mr. Shays. Thank you. It's going to be an interesting 
panel.
    Mr. Perl, let's see if we can get some of what you need to 
say. Don't try to speed it up, if we have to interrupt you in 
between, we will. Just do your statement.
    Mr. Perl. Thank you, Mr. Chairman. I also have a chart 
here.
    I'd like to state at the onset that the 9/11 Commission 
report incorporates many of the central elements of the 
National Strategy for Homeland Security and the National 
Strategy for Combating Terrorism. The commission report 
additionally contains recommendations for changes in the roles 
and responsibilities of agencies and Congress. Today I'd like 
to summarize areas of agreement and overlap in the two 
strategies in the 9/11 Commission report and I'll conclude with 
some observations.
    Thirteen themes are central to both strategies in the 9/11 
Commission report. They are: one, a need for both protective 
and preemptive action; two, a need to help foreign nations 
fight terrorism; three, a need for timely and actionable 
intelligence and warning; four, a need for integration of 
information sharing among governments, across the Federal 
Government and at State and local levels; five, a need for 
effective law enforcement cooperation and coordination; six, a 
need for law enforcement and intelligence coordination, both 
domestic and foreign; seven, a need to remove barriers to 
cooperation between governmental agencies, both domestic and 
foreign; eight, a need for an informed citizenry at home and 
abroad, this also includes winning hearts and minds; nine, a 
need to target, monitor and attack terrorist financing; ten, a 
need to track and apprehend terrorists; eleven, a need to 
combat fraudulent travel documents; twelve, a need to better 
secure borders, including ports; and thirteen, a need for risk 
analysis to help assess threats and prioritize use of 
resources.
    Mr. Shays. You know what I think we'll do? I think we'll 
stop right there, because you've gone through that. We have 5 
minutes before we vote. I'm going to suggest that, mine says 
two votes, others say we have five or six. What we'll do is 
I'll have a staff member here to tell you how many votes we 
have to take, if you have 20 minutes or whether you have a half 
hour or 15 minutes or so. We're going to recess.
    [Recess.]
    Mr. Shays. The subcommittee will come to order.
    Mr. Perl, you still have the floor, and take your time.
    Mr. Perl. Thank you, Mr. Chairman.
    So we were talking about these common themes, Mr. Chairman, 
and how meeting the objectives of these common themes would 
likely benefit our efforts to combat terrorism. But important, 
however, is not only to state our options to achieve these 
ends, but also to ensure that these objectives are feasible, 
cost effective and achievable in an acceptable timeframe.
    Moreover, I would suggest it is vital to include strategies 
and policies to mitigate the conditions that contribute to 
terrorism in societies that are incredibly different from our 
own. We might also want to consider to what degree our 
strategies and the Commission's recommendations focus on the 
last war and not the ongoing war of tomorrow. For example, the 
Commission in its first recommendation stresses the need for 
identifying and prioritizing terrorist sanctuaries, with a 
focus on failed states. However, terrorists are also using 
politically stable home countries for sanctuary, including 
western democracies, where they blend into local communities, 
where their training camps are in civilian housing complexes, 
and where their bomb factories are in private residences.
    Also, although a number of the Commission recommendations 
fall within the category of preventing the growth of Islamic 
extremism, none addresses directly the issue of confronting 
incitement to terrorism when promoted, countenanced or 
facilitated by the action or inaction of nation states. The 
President talked yesterday in his U.N. talk about this issue of 
incitement.
    Terrorists clearly demonstrate flexibility to be 
successful. So arguably, to be successful in combating 
terrorism, the challenge may not so much be in creating new 
organizational relationships, but in establishing policies and 
institutional arrangements that can adapt to change. For just 
as old organizational structures may be outdated today, new 
organizational structures and arrangements may be outdated 
tomorrow.
    And Mr. Chairman, some question whether the push to reform 
organizations and implement new polices and programs is a 
runaway train, gathering momentum but not under control, with 
increasing impact on civil liberties.
    The escalating economic costs of homeland defense has 
limits. No sizable nation can afford the costs of fortifying 
and securing every square inch of its territory. So as the 9/11 
Commission has recommended, both strategy and implementation 
must wisely prioritize allocation of resources. And this is the 
issue of risk analysis, to a certain degree, the last point 
that I made here.
    A point that one of the members of your committee brought 
up was the issue of the human factor. While strategies and 
reform of governmental structures can accelerate success 
against global terrorism, many experts see human resource 
factors as equally critical, including strong national 
leadership and high quality rank and file personnel and 
technology. In this context, the question arises, to what 
extent were the failures surrounding September 11 human rather 
than organizational failures.
    There is concern today that in today's critical times, full 
individual and organizational efforts should be focused on 
combating terrorism and not diverted by a need to adapt to new 
organizational structures, responsibilities and roles. But if 
not now, when? Many argue that not enough has been accomplished 
since September 11 to keep pace with the rising threat of 
terrorism. And many argue that given the gravity of the threat, 
changes in organizational structure, strategy and tactics long 
overdue must be implemented without delay.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Perl follows:]

    [GRAPHIC] [TIFF OMITTED] T8354.037
    
    [GRAPHIC] [TIFF OMITTED] T8354.038
    
    [GRAPHIC] [TIFF OMITTED] T8354.039
    
    [GRAPHIC] [TIFF OMITTED] T8354.040
    
    [GRAPHIC] [TIFF OMITTED] T8354.041
    
    [GRAPHIC] [TIFF OMITTED] T8354.042
    
    [GRAPHIC] [TIFF OMITTED] T8354.043
    
    [GRAPHIC] [TIFF OMITTED] T8354.044
    
    [GRAPHIC] [TIFF OMITTED] T8354.045
    
    [GRAPHIC] [TIFF OMITTED] T8354.046
    
    [GRAPHIC] [TIFF OMITTED] T8354.047
    
    [GRAPHIC] [TIFF OMITTED] T8354.048
    
    Mr. Shays. Thank you very much.
    Mr. Parachini.
    Mr. Parachini. Thank you, Mr. Chairman. I want to put my 
remarks into a little context here. At the RAND Corp., we 
recently conducted an exercise to simulate what might be a 
strategy session of the Jihadists and then try to evaluate how 
our current national strategy is configured in order to counter 
that strategy, what might happen in the future. So that will 
inform the remarks that I'm going to make about the 9/11 
Commission recommendations as well as the national strategy 
documents.
    Let me say that the basic message I would want to 
underscore here is, I think the institutional recommendations 
are not nearly as important as some others. I say that because 
we are really facing a prolonged global insurgency from a 
Jihadist movement that I think the 9/11 Commission has aptly 
identified as Islamist terrorism. More important in my view are 
the commission's recommendations about how we stem or stop the 
spread of Islamist terrorism. An important part of that, and 
the Commission provided a number of valuable suggestions that 
were both in the realm of soft power, both public and private 
diplomacy. We are not going to be strategic about stopping this 
global insurgency unless we somehow stem the recruits who are 
coming at us.
    So that's the basic message. I think the institutional 
recommendations are not nearly as important in the longer 
strategic term that we need to be focused than their emphasis 
on trying to stem the spread of this problem.
    Now, I think the commission does us an enormous service by 
really trying to provide a focused characterization of the 
threat. This was certainly our experience in the exercise at 
RAND. We cannot know how to prioritize and focus our efforts or 
allocate funds unless we have some consensus on who we think 
the adversary is and how they are liable to evolve.
    We can have lots of strategy documents that give us 
blueprints for doing things, but unless we know what we're 
planning against, we're just planning in the abstract, or one 
department and agency is planning in one direction and another 
department and agency is planning in another.
    So we have to at least start with a baseline. And this I 
think the commission, albeit briefly, did quite nicely, which 
is they have essentially a three point strategy. They talk 
about attack Islamist terrorists, prevent the spread of 
Islamist terrorism and essentially defensive measures against 
terrorist attacks, two offensive strategic thrusts and one 
defensive.
    I think on balance we're doing pretty good on one 
offensive, attack the terrorists, and the defensive one. What 
we're not doing very well at is stopping the spread of this 
phenomenon. Even if Bin Ladin is captured or killed tomorrow, 
we already see in somebody like Abu Musab al-Zarqawi another 
person up the road who is tangentially linked to al-Qaeda, 
appeared at al-Qaeda training camps but actually in Afghanistan 
had his own camps, competed with Bin Ladin for recruits.
    There will be others who will replace even him, and in 
medrosses all around central, south and southeast Asia is the 
next generation of what we're now calling al-Qaeda. But I want 
to talk about more a broader global Jihadist insurgency. That's 
what the problem is that we have to deal with. So in order to 
deal with that type of broad, multi-year threat, we have to 
focus on the objectives and the programs that get at that 
longer term problem.
    Now, in the National Strategy for Combating Terrorism, 
there is an interesting chart that essentially shows a network 
of groups that start at a national level, go through a regional 
level and go up to a global level, essentially talks about 
transnational terrorist networks, and that is the nature of the 
threat today. The national strategy then articulates that what 
the end state of the strategy is is to essentially delink that 
global network of transnational terrorism and render it 
unorganized, localized, non-sponsored and rare. That is a 
useful, I think, definition of where the starting point is and 
where the ending point is. My concern is getting from one point 
to the other.
    The national strategy documents provide blueprints with 
long menus of things to do. But it does not give the 
appropriate guidance in a focused, prioritized fashion. There 
are a lot of things to do. Indeed, immediately after September 
11, the portfolio management approach was probably a good one, 
because we had a lot of holes to fill. Now, 3 years after, we 
have to figure out how to not only spend big but actually spend 
smart. And unless we have a more focused approach, a more 
prioritized approach, we won't be able to do that.
    So one of the ways to get a better handle on prioritization 
and focus is to develop metrics that are helpful for gauging 
our progress or our falling back, backsliding. This is not an 
easy task in a global insurgency. It's not an easy task in a 
global insurgency that's liable to be longer than 2 years 
longer than 4 years and longer than 6 years. So we have to 
think about metrics that take into account things that we can 
count in the short term, terrorists killed and captured, 
finances frozen, States that drop off of our State sponsored 
list, foreign terrorist organizations that are no longer on the 
foreign terrorist organization because we deem that they are no 
longer a terrorist organization. Things that we can clearly 
identify and count.
    But that is not sufficient. We also have to think about 
qualitative longer term metrics like, the United States has not 
been attacked in quite some time, and that time is meaningful. 
Just because we have not been attacked in the last 3 years is 
not necessarily indicative of very much, given al-Qaeda's 
historical pattern of planning several years in advance and 
waiting for the moment to strike.
    We have to also be concerned about disrupting their command 
and control system. Even though we might take down 30 people, 
there may still be the one key person who's out there. So we 
have to think differently about what the metric is, and 
something more qualitative in nature may be more valuable.
    Let me conclude here by saying, measuring this 
mestastisizing global Jihadist movement is not going to be 
easy, but it is an avenue to accomplishing that greater 
priority and focus that I think is needed and that is hard to 
achieve. Senior leaders in the Government are as you know, Mr. 
Chairman, and Congressmen, don't have a lot of time in the day 
and there are a lot of things to do.
    And given the long term nature of this problem, we have to 
hit a few home runs on a few key issues, and I guess the one 
that is, I think, most important that the commission brings our 
attention to is stopping the spread of this phenomenon.
    Thank you very much. I look forward to your questions.
    [The prepared statement of Mr. Parachini follows:]

    [GRAPHIC] [TIFF OMITTED] T8354.049
    
    [GRAPHIC] [TIFF OMITTED] T8354.050
    
    [GRAPHIC] [TIFF OMITTED] T8354.051
    
    [GRAPHIC] [TIFF OMITTED] T8354.052
    
    [GRAPHIC] [TIFF OMITTED] T8354.053
    
    [GRAPHIC] [TIFF OMITTED] T8354.054
    
    [GRAPHIC] [TIFF OMITTED] T8354.055
    
    [GRAPHIC] [TIFF OMITTED] T8354.056
    
    [GRAPHIC] [TIFF OMITTED] T8354.057
    
    [GRAPHIC] [TIFF OMITTED] T8354.058
    
    [GRAPHIC] [TIFF OMITTED] T8354.059
    
    [GRAPHIC] [TIFF OMITTED] T8354.060
    
    [GRAPHIC] [TIFF OMITTED] T8354.061
    
    [GRAPHIC] [TIFF OMITTED] T8354.062
    
    [GRAPHIC] [TIFF OMITTED] T8354.063
    
    [GRAPHIC] [TIFF OMITTED] T8354.064
    
    [GRAPHIC] [TIFF OMITTED] T8354.065
    
    [GRAPHIC] [TIFF OMITTED] T8354.066
    
    Mr. Shays. Thank you all very much.
    Sorry for the interruptions, and we'll have another 
interruption. Do you want to start? I'm happy to have you 
start, Mr. Tierney. Why don't you start?
    Mr. Tierney. Thank you, Mr. Chairman. I think we're both 
heading in the same direction here, so it's fine either way 
with me.
    Mr. Rabkin, you made the comment during your opening 
remarks that you've noticed some difficulties in establishing 
the standards of first responders. Can you give me sort of a 
status assessment? I know the chairman has been a leader here 
in a bipartisan method to try and get some standards 
established, so that local responders, even local industries 
understand where it is they're supposed to go, when it goes 
from yellow to orange, from one color to another, instead of 
just running around like chickens with their heads cutoff doing 
everything in sight, spending every dime they have just to try 
and say they're doing all they know how to do, without really 
knowing whether or not what they're doing is the most effective 
thing.
    So can you give me a status report on that, or some 
suggestions on how to get there quicker?
    Mr. Rabkin. I think you defined some of the problem in your 
question. There is a lack of standards as to how prepared they 
should be and what they should be prepared for. There is also a 
lack of definition of who is a first responder and what the 
various colors on the threat advisory mean. The Department of 
Homeland Security is making some progress on this, and they're 
getting help from some private sector organizations as well. 
There is also some work being done developing performance 
standards for responding to emergencies, whether they be caused 
by terrorists or by natural causes.
    There are plans and strategies and plans within the 
Department to incorporate these standards into the programs so 
that the Department can figure out where the first responder 
grant funds should go. The standards would be based on common 
definitions of what first responders are supposed to do, what 
kind of equipment they need to do it, and how prepared they 
need to be. So it can be transferred into the funding decision.
    Mr. Tierney. Thank you.
    Mr. Parachini, is RAND one of the organizations that the 
Department of Homeland Security is asking for some advise and 
counsel?
    Mr. Parachini. RAND does do some work for the Department of 
Homeland Security.
    Mr. Tierney. Does any of it involve setting up the sort of 
metric that you were talking about?
    Mr. Parachini. No. Not that I am aware of.
    Mr. Tierney. Have there been published papers or studies 
done in terms of expanding or expounding upon what you've 
recommended there?
    Mr. Parachini. No, and your question is a good one and it 
points to what I think is a national deficiency, that we really 
need to get much better at understanding how to measure 
progress in something like this. Quantitative tools are indeed 
part of it, but we've got to think about other ones. 
Unfortunately, that means it's probably a mosaic of different 
metrics. This problem is not an easy one to understand, and 
there will not be an easy balance sheet way to understand it 
and whether we're making progress. That doesn't mean we 
shouldn't try and we shouldn't try hard.
    Mr. Tierney. One of the concerns I have with the Department 
of Homeland Security itself is just how well they are coming 
together. There are 22 odd agencies coming together at a very 
critical time when we have so much for them to do and there 
were some criticisms at the beginning that it would simply be 
moving the deck chairs on the Titanic at that time. Do any of 
you have a perspective on how well the Department has done in 
actually coming together as a cohesive unit, whether or not we 
are there?
    I read one very critical article recently talking about 
just the simple matter of where it's located, and its offices 
and how difficult the physical setup is for people to work in 
that environment. Are we really putting together a cohesive 
Department of Homeland Security? Is there still a lot of 
fractured relationships going on there? Are we focused?
    Mr. Rabkin. I can try to answer that, Mr. Tierney. Before 
the Department was created, we put it on the GAO high risk 
list, because we knew the difficulty there would be in not only 
a department putting 22 agencies together, but 22 agencies that 
bring a lot of management problems with them, alnd doing it 
while carrying out perhaps something that's the most important 
mission in the Government today. We will be revisiting that 
issue as to whether they are still at high risk in their 
transformation and implementation in the Department.
    But to answer part of your question, that immediately when 
they were put together their first priority was dealing with 
the mission and some of these other issues of management and 
blending departments or the components together dealing with 
pay systems, dealing with insignias was of less importance. 
They have made progress in identifying what has to be done and 
starting down that road, they've done a lot of work in 
financial management and acquisition management, strategic 
planning, human capital management. It's a little early to say 
if they've gotten over the hump. But we've pointed out that 
these kinds of transformations generally take 5 to 7 years to 
work themselves out. It would be a little unreasonable to 
expect them in a year and a half or 2 years, to have done all 
that.
    Mr. Tierney. Thank you. Anybody else care to comment on 
that?
    Mr. Perl. I had some thoughts on the issue of metrics. One 
of the things that the commission talked about is maybe to 
include a little bit more out-of-the-box thinking. And 
shortfalls exist when we establish metrics. There are two 
shortfalls that I see traditionally. No. 1 is that when we look 
at success, I think it's important to include: did we over-
react. Because we're not fighting one decisive victory, we're 
fighting an ongoing war or campaign where resources are 
limited.
    So we can have success on a particular issue, but what was 
the cost? Did we over-react? I think the key is measured 
success, not just success by itself.
    And the other issue is, I think it's important to factor in 
the terrorist concept of success and not just our concept. To a 
certain degree we may be fighting different wars and measuring 
on different scales. For example, we may view as success the 
fact that we have large numbers of Transportation Security 
Administration people now at our airports. But the terrorists 
may also view that as success, because they're draining our 
resources, it costs the country an enormous amount of money and 
we're not putting the resources in other areas where they may 
attack.
    Another observation is that it seems to me that when we 
tend to measure success--and this ties in with what John was 
saying about going after al-Qaeda and not trying to go after 
having better relations with the Muslim world generally and 
looking toward the future--we tend to measure success in 
tactical terms. And they tend to measure success in strategic 
terms. So it's not easy to do, and it's a daunting challenge, 
but I do think that as part of the framework that we have for 
measuring success, these factors are important.
    Mr. Tierney. I yield back.
    Mr. Shays. Thank you.
    We have another round of votes, and I think what we're 
going to do is just try to finish here, so I don't keep you 
waiting another half an hour. But that does mean that there 
might be some questions to the subcommittee. And you all are 
real experts on this issue. I'm going to run through some 
questions real quick, and I'd love short answers.
    Do the 9/11 Commission recommendations constitute a new 
counterterrorism strategy for the country?
    Mr. Rabkin. I wouldn't call it a new strategy, but I think 
it suggests that the current strategy probably needs to be 
updated and some of these ideas worked into it.
    Mr. Shays. Thank you. That's helpful.
    Mr. Perl.
    Mr. Perl. The 9/11 Commission recommendations constitute 
some fine tuning of strategy, particularly in terms of money 
laundering and terrorist financing: a recognition that seizing 
the money cannot be the only object. And some fine tuning in 
terms of emphasis, more emphasis on going after hearts and 
minds.
    Mr. Shays. Mr. Parachini.
    Mr. Parachini. I think it does account for a new strategy, 
because it's a very focused strategy.
    Mr. Shays. What's a very focused strategy? The existing or 
what they want?
    Mr. Parachini. The 9/11 Commission strategy. It's focused 
on the adversary and it defines who the adversary is.
    Mr. Shays. In other words, even that point of just saying, 
instead of saying terrorism, it's Islamist terrorism?
    Mr. Parachini. Extremely important. A small little word 
change, but I think it is extremely important.
    Mr. Shays. And I think the other members would agree with 
that?
    Mr. Perl. Yes.
    Mr. Rabkin. Yes.
    Mr. Perl. But that can also be a pitfall. Because we may 
not be focusing enough on other types of terrorism in the 
future that we'll be seeing.
    Mr. Shays. And there will be. There will be.
    Mr. Parachini. I understand that argument, but we don't see 
other terrorist groups rising up to this level of threat to the 
United States. There is nothing like this global insurgency out 
there.
    Mr. Shays. The communists weren't our only threat. But Lord 
knows, they constituted the bulk of it. And we had a strategy 
to deal with that.
    Beyond the Federal Government, who needs to be involved in 
developing strategies to combat terrorism?
    Mr. Rabkin. I think it's important that all the partners in 
carrying out the strategy have some part in putting the 
strategy together. This includes the State and local 
governments, the private sector, and our international 
partners, Congress ought to be involved. Certainly the 
Executive branch has the responsibility to promulgate the 
strategy, but others should be involved in the process of 
pulling it together and updating it.
    Mr. Perl. I think we need to involve people with no 
experience in terrorism, sociologists, anthropologists, not 
just the usual gang of suspects. And also, this is very 
controversial, so I'll present it as an option, one option that 
might be worth considering would also be to engage criminals 
and former terrorists in developing counterterrorism strategy.
    Mr. Shays. I hear you. When we have hackers, we invite 
hackers to tell us how we can figure them out.
    Mr. Parachini. Well, there may be many stakeholders. It's 
really the President in a dialog with the Congress, to set a 
national strategy.
    Mr. Shays. How should we think about measuring our national 
progress? I want it done in non-scientific terms, Mr. 
Parachini. I want to understand, how will John Tierney and I 
know we're making progress?
    Mr. Parachini. I think if we see the number of recruits 
declining who go into Jihadist groups, that's a good sign. If 
we see editorials in government-owned Arab newspapers 
condemning the types of beheadings like we've seen recently, 
that's progress. If we hear in mosques all across the Islamic 
world these types of things being condemned, that I think is a 
sign of progress that's long term, that's important, and we're 
taking note of. I know we're taking great note of the opposite.
    Mr. Shays. Thank you. Others?
    Mr. Perl. I think also of progress in terms of civil 
liberties, if people can go to an airport, not have to wait a 
long time in line and not go through intrusive inspections or 
searches, I think that would be a sign of progress. I also 
think of progress in terms of the way the population reacts on 
a daily basis, is it a fearful population, how do they change 
their daily lives in terms of terrorism. In Israel there is 
something called the fear index that they give, or government 
commissions to get a sense of how the population sees progress.
    And also important is progress on the street in other 
countries. We tend to address our polices to the elite, 
terrorists tend to talk to the street.
    Mr. Shays. I'm going to respond to your fear issue, because 
I look at it both as a negative and a positive. Mr. Rabkin.
    Mr. Rabkin. I think my answer would probably be too 
technical, because I think we ought to start with what the 
goals are and the organizations that are responsible for 
carrying it out need to develop those measures. That's what we 
ought to be paying attention to. There ought to be a system of 
measures. You don't need 500 measures. There ought to be one or 
two that each of the organizations is going to be held 
accountable to. And it would roll up into the kinds of measures 
that these gentleman are talking about.
    Mr. Shays. Thank you. Just the thing with fear, sometimes 
when I hear our Secretary of Homeland Security say, we've gone 
to code yellow, to code orange, we've gone to elevated, to 
high, but just keep doing everything you ordinarily do, that to 
me is a false sense of security. I rebel at that. So I don't 
know. When I see a corrupt government but nobody's looking at 
it, and they say, well, it's an honest government, that doesn't 
mean it's an honest government just because they haven't 
grabbed at it. So your fear factor, I'm just responding to it a 
little bit.
    We only have 4 minutes left. This is tragic, for me it is. 
Is there any last comment, gentlemen, you would like to put on 
the record? Because we could go a lot further. Any last 
comments, short ones?
    Mr. Rabkin. I appreciate your interest, Mr. Chairman.
    Mr. Shays. Let me just say, I think we're going to get all 
three of you back. If I'm back next year, I'm getting the three 
of you back. [Laughter.]
    Thank you all very much. This hearing is adjourned.
    [Whereupon, at 1:20 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T8354.067

[GRAPHIC] [TIFF OMITTED] T8354.068

                                 <all>

</pre></body></html>
